U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




     International Trade Administration

       Commercial Service India: Challenges
      Remain for Management of a Large and
                  Economically Diverse Post
         Final Inspection Report No. IPE-16808/September 2004




                                PUBLIC
                                RELEASE



                      Office of Inspections and Program Evaluations
                                              TABLE OF CONTENTS 


EXECUTIVE SUMMARY ................................................................................................. i 

BACKGROUND ................................................................................................................ 1 

OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 6 

OBSERVATIONS AND CONCLUSIONS ....................................................................... 7 

I. 	 Strong Trade Partner Relations Exist, But Some Weaknesses in Administrative 

     Operations Exist............................................................................................................ 7 

     A. 	CS India Collaborates Well with Trade Partners and Other Government 

         Agencies.................................................................................................................. 7 

     B. 	New SCO Has Restructured Post Operations ....................................................... 10 

     C. 	CS India Does Not Help U.S. Companies Establish Outsourcing Operations...... 12 

     D. 	ANESA Region Provided Untimely Support During FYs 2002 - 2004 ............... 13 

     E. 	CS India’s Staff and Space Utilization Warrant Management’s Attention........... 15 

II. Client Satisfaction is Generally Favorable But Post Library Services and Export 

    Success Reports Need Closer Management Attention................................................ 19 

    A. Most Clients Whom We Interviewed Were Satisfied with CS India's Products 

        and Services .......................................................................................................... 19 

    B. 	Business Information Centers are Underutilized and Ill-Equipped ...................... 21 

    C. 	Export Success Reporting Has Improved but Needs Better Management 

        Review .................................................................................................................. 23 

    D. 	Export License End-Use Checks Are Generally Handled Well ........................... 32 

III. CS India’s Handling of Trade Events Indicates Need for CO Training ..................... 34 

     A. Authority for Methods Used by Post to Collect Fees for Three CS India Trade 

        Fairs Is Not Clear .................................................................................................. 34 

     B. CS India Provided Inappropriate Services for Noncertified Trade Fairs.............. 37 

     C. Problems with USA Day Events Further Illustrate Post’s Failure to Properly 

        Handle Trade Events............................................................................................. 39 

IV. Financial and Administrative Operations Are Generally Sound, But a Few Areas 

    Require Additional Attention...................................................................................... 43 

    A. 	CS India’s Financial Operations Are Generally Well Managed........................... 43 

    B. 	Performance Evaluations and Within-Grade Increases Have Been Delayed........ 45 

SUMMARY OF RECOMMENDATIONS ...................................................................... 47 

APPENDICES .................................................................................................................. 49 

  A. List of Acronyms ................................................................................................... 49 

  B. Agency Response to Draft Report.......................................................................... 50 

  C. Security Issues at Some CS Offices are a Concern 

      (FOR OFFICIAL USE ONLY)..............................................................................61 

U.S. Department of Commerce                                                   Final Report IPE-16808

Office of Inspector General                                                           September 2004


                                    EXECUTIVE SUMMARY 


The Department of Commerce’s International Trade Administration (ITA) plays a major
role in leading the federal government’s efforts to increase U.S. exports. ITA’s U.S.
Commercial Service,1 as one of the most visible export promotion agencies, works
closely with the American business community as well as federal, state, and local trade
partners to promote companies’ awareness of export opportunities and increase U.S. sales
abroad. To this end, Commercial Service operates offices in 78 countries and 106
domestic trade assistance offices in the United States.

The Office of Inspector General conducted an inspection of Commercial Service’s India
post, which operates seven offices in Ahmedabad, Bangalore, Calcutta, Chennai,
Hyderabad, Mumbai, and New Delhi, from May 24 through July 21, 2004. We focused
primarily on the post’s management, program operations, and financial and
administrative practices.

Overall, we found that the post is generally doing a good job of providing export
assistance to U.S. companies and collaborates well with its trade partners, other
components of the U.S. mission and ITA, and other government agencies. However, we
also identified a number of issues that warrant Commercial Service’s attention. Our
specific observations are as follows:

Trade Partner Relationships Are Strong, but Some Weaknesses in Administrative
Operations Exist. The Senior Commercial Officer (SCO) provides leadership and
direction to the post and focuses its efforts on CS’ core mission of assisting U.S.
exporters. Embassy colleagues, trade-related organizations, and other ITA components
and government agencies, such as Export-Import Bank, U.S. Trade Development
Agency, U.S.-Asia Environmental Partnership, described CS India as a valuable trade
partner that is responsive, collaborative, and knowledgeable. However, management
should evaluate staff and resource utilization in an effort to minimize administrative
support costs. In addition, some weaknesses in administrative operations exist
(see page 7).

Clients Whom We Interviewed Were Generally Satisfied with Post’s Assistance, but
Export Success Reports Need Additional Management Scrutiny. CS India provided
services to 98 companies during FYs 2003 and 2004 (through April 2004). We spoke to
14 of these clients, 12 of whom were satisfied with CS India’s products and services. In
addition, CS India’s market research products adhered to Commercial Service guidelines.
However, the post’s business information centers are underutilized and ill equipped, and
in some instances occupy an inordinate amount of office space (as much as 50 percent in
two cases). In addition, the current SCO has put a priority on increasing export
successes—CS’ primary performance measure. As of June 2004, the post had reported a
241 percent increase in successes over FY 2003 (from 148 last fiscal year to 505 so far in
FY 2004). However, we found that many export successes reported by the South India
region (Bangalore, Chennai, and Hyderabad) did not meet CS guidelines. In many cases
1
    U.S. Commercial Service is also known as the U.S. & Foreign Commercial Service (US&FCS).


                                                   i
U.S. Department of Commerce                                             Final Report IPE-16808
Office of Inspector General                                                     September 2004

we could not verify the link between CS assistance and the reported export success, and
identified several that did not meet the criteria of an export success. As a result, the SCO
reviewed and removed, withdrew or combined 50 FY 2004 export successes from the CS
database, and some additional deletions may still be needed. We recognize that CS
headquarters, in response to prior OIG reports, has taken a number of steps to
communicate to its staff the importance of performance measures and accurate export
success reporting, and it is working to (1) train CS managers and staff on correct
reporting procedures and (2) put quality control measures in place. However, CS needs
to ensure that this message is made part of written CS guidelines and procedures. We are
concerned that CS’ new reporting guidelines, which went into effect for FY 2004, have
reduced management accountability for ensuring the accuracy and integrity of export
success reports (see page 19).

CS India’s Handling of Trade Events Indicates Need for Commercial Officer
Training. For three trade fairs held during FY 2003-2004, we found problems with CS
India’s participation in two areas—the method by which the post collected fees and
whether the post provided support for noncertified trade fairs that is only supposed to be
provided for certified trade fairs. Specifically, for two of these trade fairs, CS India
accepted or considered accepting promotional fees from non-U.S. government fair
organizers that were based on space rental fees paid by U.S. fair participants, rather than
on the cost of the CS services provided. In the third case, CS India collected a portion of
discounts that U.S. participants received from the organizer. ITA should consult with the
Department's Office of General Counsel to determine whether it can collect promotional
fees. In addition, ITA should clarify the level of services appropriate for noncertified
trade fairs.

A fourth trade event program, initiated in FY 2001 but with continuing financial
problems in FY 2004, also highlighted post’s failure to properly manage trade events.
This program involved trade events planned for 12 cities in western India for FY 2001­
2002. After events had been held in six cities, an allegation of misuse of funds by CS
Mumbai was forwarded to ITA by the OIG, and the remaining events were not held. As
part of a headquarters decision made in 2002, CS and ITA intended to disburse
approximately $25,000 in 2004 to the Indian trade association, which had handled
contributions for the events. On our return from post, we informed CS and ITA officials
of additional pertinent facts related to this series of events, and ITA agreed that it was no
longer appropriate to disburse the funds. Hence, about $25,000 are now available for
better use (see page 34).

Financial and Administrative Operations Are Generally Sound, but a Few Areas
Require Management Attention. In general, CS India’s financial and administrative
operations were sound, and weaknesses noted during FYs 2003-2004, such as untimely
payments to vendors, have largely been addressed. However, management needs to
resolve two remaining issues: (1) conflicting written guidance regarding its overseas
collection and deposit requirements; and (2) untimely completion of performance
appraisals, and the resulting delays in pay increases for some foreign service nationals
(see page 43).



                                              ii
U.S. Department of Commerce                                           Final Report IPE-16808
Office of Inspector General                                                   September 2004



On page 47, we list a summary of the recommendations we are making to address our
concerns.



In its response to our draft report, ITA and CS concurred with most of our
recommendations. Specifically, ITA stated that CS management would carefully review
current staffing patterns and job allocation in India within existing resource constraints
and recommend appropriate changes. In addition, CS management and the SCO plan to
evaluate CS India’s existing office space allocations and rent obligations, including issues
pertaining to the Business Information Centers. CS management reported that it has
allocated funds for the purchase of voicemail equipment where appropriate, and online
databases for CS India offices and the Business Information Centers, respectively. CS
management plans to ensure that CS India officers and staff receive appropriate
administrative and financial training. Finally, CS stated that the SCO understands the
importance of submitting timely FSN personnel evaluations and has made good progress
in overcoming the backlog that he attributed to the ordered evacuation and curtailment of
the previous SCO. CS management did not specifically address five of our
recommendations: (1) that the Department’s Office of General Counsel clarify CS’
authority to collect promotional fees from non-USG fair organizers, (2) that it oversee
post’s trade events, (3) that it ensure that COs worldwide are trained on ITA policies
regarding certified and noncertified trade fairs, trade event financing arrangements, and
current Department guidelines on interoffice and other special agreements, (4) that it
coordinate its overseas collections and deposit requirements and ensure administrative
personnel are aware of and follow appropriate procedures, and (5) the recommendation in
Appendix C related to post security concerns.

ITA and CS also disagreed with our findings related to export success reporting. CS
management disagreed with our finding that its FY 2004 reporting guidelines have
reduced management accountability for ensuring the quality and integrity of export
success reports. CS' response to our draft report also stated that the Senior Commercial
Officer in India disagrees with our concerns about the need for the current level of post
cars, drivers, and administrative staff.

In closing comments, CS noted that it appreciated the OIG’s constructive
recommendations, but would like to see the OIG regularly mention best practices it finds
during post inspections. We recognize the value of highlighting best practices and note
that we outlined a number of those of CS India, such as its outsourcing guidance, its
efforts to improve post teamwork and responsiveness, its collaboration with trade
partners, and its initiative with the Group of American Businesses in Western India.

We discuss ITA’s response to our findings and recommendations in greater detail
following each section of this report. ITA’s entire response to our draft report begins on
page 50.



                                            iii
U.S. Department of Commerce                                                         Final Report IPE-16808

Office of Inspector General                                                                 September 2004


                                           BACKGROUND 


                                    The International Trade Administration (ITA) established
                                    the Commercial Service (CS)2 in 1980 to assist U.S.
                                    companies—particularly small and medium-sized
                                    businesses—in exporting their products and services to
                                    international markets, and to help protect U.S. business
                                    interests abroad. CS operates offices in 78 countries to
                                    represent these interests on foreign soil, and 106 U.S.
                                    export assistance centers to provide assistance
domestically.

Of its foreign posts, CS India is one of the largest: it maintains offices in seven cities (see
map, figure 1) and had an FY 2004 budget of approximately $2.36 million.3 The post
assists U.S. companies in a wide range of industries, such as telecommunications
equipment; computers and peripherals; electrical power generation, transmission, and
distribution equipment; pollution control equipment; and educational services. Its trade
specialists provide one-on-one counseling and customized business solutions to U.S.
firms venturing into the Indian market or seeking to expand their international activities
in India.

With more than 1 billion residents, India is the second most populous country and the
largest democratic republic in the world. It is the seventh largest in terms of physical
space, and while its land area is only about one-third the size of the U.S., India’s
population is more than three times as large.4 Since 1991, India has implemented
significant economic reforms to encourage international trade, including substantial
reductions in tariffs and other trade barriers.5




2
  The Commercial Service is also known as the U.S. and Foreign Commercial Service. 

3
  This amount represents expenditures for staff salaries (commercial officers, foreign service nationals 

(FSNs), and personal services agreement contractors); administrative support paid through the State 

Department’s International Cooperative Administrative Support Services (ICASS) program; office and 

residential leases; and direct program support.

4
  Source: www.mrdowling.com/800area.html, The Nations and Territories of the World. 

5
  U.S. Department of State, Bureau of South Asian Affairs, Background Notes: India, March 2000. 



                                                      1

U.S. Department of Commerce                                                              Final Report IPE-16808
Office of Inspector General                                                                      September 2004

Figure 1. Commercial Service Operations in India




                                                                             CS Posts

           New Delhi


      Ahmedabad




        Mumbai
                                                                             Calcutta

                                                             Hyderabad




    Bangalore                                      Chennai




    Source: http://www.mapsofindia.com/maps/india/india-political-map.htm , accessed July 19, 2004


With a gross domestic product of $500 billion, India is the world’s 12th largest economy.6
GDP growth is expected to surpass 6 percent in 2004, making its economy one of the
fastest growing as well. This growth is causing a rapid expansion of the country’s middle
class (currently some 200 million strong) and spawning a large consumer society, both of
which should keep demand for U.S. consumer goods in India high.


6
 U.S. Commercial Service, India Country Commercial Guide FY 2004: Chapter 2 - Economic Trends and
Outlook.


                                                          2

U.S. Department of Commerce                                                      Final Report IPE-16808

Office of Inspector General                                                              September 2004


U.S.-India Trade Is Growing

The United States is India’s single largest trading partner. U.S. exports to that country in
2003 were $5 billion, up 22 percent from the previous year. Corresponding imports from
India to the U.S. were $13.1 billion, up 10.4 percent. India is the 24th largest export
market for U.S. goods,7 and its requirements for equipment and services in the
infrastructure, transportation, energy, environmental, health care, high-tech, and defense
sectors are expected to exceed tens of billions of dollars in the coming years.8

Large in population, physical, and economic size, India is also very diverse. The Indian
Government has recognized 18 official languages.9 Hindi is the national language and
primary tongue of 30 percent of the people. English is the most important language in
national, political, and commercial communications. Ethnic groups consist of Indo-
Aryan (72 percent), Dravidian (25 percent), and Mongoloid and other (3 percent). The
two main religions are Hinduism (81.3 percent) and Muslim (12 percent), but there are
also Christians (2.3 percent), Sikhs (1.9 percent), Buddhists, Jains, and others.10 In 2000
India created 3 new states,11 giving the multiethnic, multireligious, federal republic a total
of 28 states, 6 union territories, and the national capitol territory of Delhi.12

At various times, social unrest and the threat of war have negatively affected the business
environment in India. These include historical tensions between India and Pakistan,
which almost brought war in 2002; continuing militant separatist movements in
northeastern India; and Hindu-Muslim tensions in the state of Gujarat in 2003. However,
as these dangers have been largely contained in specific regions, they did not lead to
widespread disruption of the national economy.13

Research by the Commercial Service and U.S. Department of State has concluded that
business in India’s regions is booming. According to the American Chamber of
Commerce in India, a majority of U.S. firms with a presence in the country are reporting
double-digit year-on-year growth. Mumbai, Chennai, Ahmedabad, Bangalore, Calcutta,
and Hyderabad, 6 of the 7 cities where CS has a presence, are expected to play
increasingly important roles in trade relations between India and the United States. CS’
India Country Commercial Guide, using the Confederation of Indian Industry as its
source, reports that more than 50 percent of production and research is occurring in
southern and western India.14

7
  USTR, 2004 National Trade Estimate Report on Foreign Trade Barriers. 

8
  U.S. Commercial Service, India Country Commercial Guide FY 2004: Chapter 1 – Executive Summary. 

9
  U.S. Department of State, Bureau of South Asian Affairs, Background Notes: India, March 2000

10
   U.S. Commercial Service, www.buyusa.gov/india/en/44.html. 

11
   Chhattisgarh, Jharkhand and Uttaranchal were carved from the larger states of Madhya Pradesh, Bihar, 

and Uttar Pradesh respectively. Source: Dev, Ganesh, “India creates first new states in 30 years.”

www.wsws.org/articles/2000/oct2000/ind-o20.shtml. 

12
   www.cia.gov/cia/publications/factbook/geos/in.html, CIA, The World Factbook—India;

www.indax.com/basic.html, States of India..

13
   U.S. Commercial Service, India Country Commercial Guide FY 2004: Chapter 3 – Political 

Environment.

14
   U.S. Commercial Service, India Country Commercial Guide FY 2004: Chapter 1 – Executive Summary 



                                                    3

U.S. Department of Commerce                                                 Final Report IPE-16808
Office of Inspector General                                                         September 2004

Two events significantly impacted CS operations in India during FY 2002-2004. The
first was an authorized evacuation of all commercial officers (COs) from May 31 through
July 29, 2002, due to the threat of war between India and Pakistan. The second event was
the curtailment of the previous senior commercial officer’s (SCO’s) assignment in
February 2003, which left CS India without an SCO for 5 months. The current SCO
arrived in New Delhi in July 2003.

CS India Offices and Staffing

In June 2004, CS India had 5 commercial officers in Chennai, Mumbai, and New Delhi;
and 18 foreign service nationals (FSNs) and 21 contractors hired under personal services
agreements (PSAs) spread among these three cities as well as in Ahmedabad, Bangalore,
Calcutta, and Hyderabad. Figure 2 shows the distribution of staff among the seven post
offices.

The post is organized under CS headquarters’ Office of International Operations (OIO),
and reports to the regional director for the Africa, Near East, and South Asia region
(ANESA), who is located in Washington, D.C. CS India also works with partner posts in
Nepal, Bangladesh, Sri Lanka, Bhutan, and the Maldives15.

The SCO and deputy SCO are located in New Delhi, the capital of India (population—11
million). This office is responsible for Delhi, the union territory of Chandigarh, and the
states of Rajasthan, Jammu & Kashmir, Uttar Pradesh, Haryana, Himachal Pradesh,
Punjab, and Uttaranchal. The New Delhi office also supervises the Calcutta CS office.

Calcutta (12 million) is the capital of the state of West Bengal in eastern India. The
Commercial Service office here is responsible for the states of West Bengal, Orissa,
Assam, Bihar, Jharkhand, Arunachal Pradesh, Meghalaya, Manipur, Nagaland, Tripura,
Mizoram, and Sikkim, and the union territory of the Andaman and Nicobar Islands.

Mumbai (15 million) is a commercial center on the west coast. Formerly known as
Bombay, Mumbai is India’s most populous city and the capital of the state of
Maharashtra, which accounts for 23 percent of the country’s gross value of industrial
output.16 CS Mumbai and its Principal Commercial Officer (PCO) are responsible for the
states of Maharashtra, Goa, Madhya Pradesh, and Chattisgarh. The Mumbai office also
supervises the Ahmedabad CS office.

The Ahmedabad office is responsible for the state of Gujarat, a leading Indian industrial
belt of 50-million-plus people in western India and the ancestral home of more than half
of all nonresident Indians in the U.S.17 Chennai (6 million), formerly known as Madras,
is the major industrial, business, and cultural center of south India, and the capital of the


15
   Department of State posts with no Commercial Service presence.
16
   www.webindia123.com/maharashtra/economy/economy.htm, Indian States and Union Territories
17
   U.S. Commercial Service, India Country Commercial Guide FY 2004: Chapter 2 - Economic Trends and
Outlook


                                                 4

U.S. Department of Commerce                                                 Final Report IPE-16808
Office of Inspector General                                                         September 2004

state of Tamil Nadu--the third largest economy among Indian states.18 The Chennai
office is responsible for the states of Tamil Nadu, Kerala, and the union territory of
Pondicherry, and also supervises the CS offices in Bangalore and Hyderabad.

Bangalore (5 million) is the capital of Karnataka in south India and home of several
leading scientific and technical institutions and key IT and defense entities. Bangalore is
considered the fastest growing city in Asia.19 The Bangalore office is responsible for
Karnataka—one of the leading states in industrial development and computer software.20

Hyderabad (5 million) is the fourth fastest growing city in the world and the capital of the
state of Andhra Pradesh in south India.21 CS Hyderabad is responsible for Andhra
Pradesh, the third largest state.22

Figure 2. CS India Staffing (July 2004)
                                        New Delhi
                                      SCO, DSCO, CO
                                         8 FSNs
                                         6 PSAs


        Calcutta               Mumbai                             Chennai
         2 FSNs                 PCO                                 PCO
         1 PSA                 4 FSNs                              3 FSNs
                               6 PSAs                              3 PSAs


                            Ahmedabad                 Bangalore             Hyderabad
                              3 PSAs                    1 FSN                 1 PSA
                                                        1 PSA


Measuring Post Performance

The Commercial Service uses an Overseas Resource Allocation Model (ORAM) and a
cost-benefit model to evaluate each post’s performance. The ORAM takes into account
many factors such as mission requirements, workload, market share and barriers, and per
capita gross domestic product, and then ranks CS posts according to their potential for
facilitating U.S. export business in their assigned countries. The cost-benefit model
divides projected export successes by the variable costs of operating the post and
calculates a 3-year rolling average cost-benefit ratio. CS divides the posts into five
groups, or quintiles, according to their ORAM ranking and cost-benefit ratio, with the
first quintile containing the best performers. For both measures, CS India ranked in the
second quintile for FY 2002 (the most recent data available).

18
   www.tidco.com/tn_policies/focus_tamilnadu/economic_profile_of_tamilnadu1.asp, Focus Tamil Nadu
19
   U.S. Commercial Service, India Country Commercial Guide FY 2004: Chapter 2 - Economic Trends and
Outlook
20
   www.webindia123.com/karnataka/economy/economy.htm, Indian States and Union Territories
21
   U.S. Commercial Service, India Country Commercial Guide FY 2004: Chapter 2 - Economic Trends and
Outlook
22
   www.economywatch.com/stateprofiles/andhrapradesh/profile.htm, State Profile – Andhra Pradesh


                                                 5

U.S. Department of Commerce                                           Final Report IPE-16808

Office of Inspector General                                                   September 2004


                  OBJECTIVES, SCOPE, AND METHODOLOGY 


The purpose of our inspection was to assess the effectiveness of the management,
programs, and financial and administrative operations of CS India. Specifically, we
sought to determine whether the post:

   • 	 Plans, organizes, and controls its work and resources effectively and efficiently;
   • 	 Operates effectively, in that it meets the needs of U.S. exporters and helps
       increase U.S. exports and market access; and
   • 	 Has appropriate internal controls and financial management practices.

To accomplish our objectives, we did the following:

   • 	 Reviewed the post’s FY 2003 and FY 2004 strategic plans, which offer
       quantifiable performance goals and measures for increasing U.S. exports as well
       as efforts to coordinate and collaborate with trade partners;
   • 	 Interviewed appropriate CS officials, as well as trade partners representing
       various federal, state, and local government agencies and organizations, and
       various geographic, ethnic, and industry-focused constituencies;
   • 	 Surveyed all post staff and a random sample of the post’s clients;
   • 	 Evaluated coordination between the post and other trade-related organizations in
       relation to achieving the overall goals of ITA and the Department of Commerce;
       and,
   • 	 Examined pertinent files and records relating to CS India’s financial, 

       administrative, and other operations.


We conducted our fieldwork from May 24 through June 16, 2004, by visiting all seven
CS India offices: Ahmedabad, Bangalore, Calcutta, Chennai, Hyderabad, Mumbai, and
New Delhi. We also met with the U.S. Ambassador, Deputy Chief of Mission, and other
embassy officials from various government agencies, and ITA, CS, and Bureau of
Industry and Security (BIS) officials in Washington, D.C. During the review and at its
conclusion, we discussed our findings with the CS India senior commercial officer and
the Africa, Near East, South Asia (ANESA) Regional Director. We also discussed our
findings with ITA’s Chief Financial Officer and Director of Administration, the Deputy
Assistant Secretary and Deputy Director General of the Commercial Service, and CS’
Deputy Assistant Secretary for International Operations.




                                            6

U.S. Department of Commerce                                            Final Report IPE-16808

Office of Inspector General                                                    September 2004


                       OBSERVATIONS AND CONCLUSIONS 


I. 	 Strong Trade Partner Relations Exist, But Some Weaknesses in Administrative
     Operations Exist

We found that CS India had a strong, collaborative relationship among its component
offices and with its domestic counterparts, trade-related partners, and business clients.
Staff repeatedly noted that the SCO, deputy SCO (DSCO), and Principal Commercial
Officers (PCOs) provide a sense of focus, direction, and leadership. We also found that
the post is well respected by the other sections of the U.S. mission, local partners, and the
business community. They consider the post to be a reliable source of information and
readily available to help sponsor, promote, and organize trade-related events.
Additionally, most of the clients we contacted noted that the commercial specialists are
generally knowledgeable of the markets and provide timely and valuable information.

A. 	CS India Collaborates Well with Trade Partners and Other Government Agencies

Export opportunities are maximized for U.S. firms when representatives from a range of
trade-related organizations work together to facilitate delivery of export assistance. CS
India has done a good job establishing such relationships. The post’s efforts to assist
U.S. exporters generally received favorable comments from embassy colleagues, U.S.
companies, and American Chamber of Commerce members because of the staff’s
responsiveness and extensive knowledge of the market. Specific examples of
collaboration are discussed below.

Federal Agencies. The complex nature of international commercial business requires
teamwork among all U.S. government trade-related agencies. Officials from numerous
U.S. agencies told us that the CS India staff is responsive, knowledgeable, and
collaborates well to help expand opportunities for U.S. exporters.

Export-Import Bank (Ex-Im) is the official export credit agency of the United States.
Ex-Im Bank's mission is to assist in financing the export of U.S. goods and services to
international markets. A senior Ex-Im official stated that the SCO is one of the very few
commercial officers to attend Ex-Im training and have thorough knowledge of its
policies. Although Ex-Im’s training is free to CS officers, the official stated that very
few take advantage of it. This official also participated in a recent delegation of U.S.
companies to India and stated that CS India helped facilitate potentially one of the largest
deals for Ex-Im this fiscal year.




                                              7

U.S. Department of Commerce                                                            Final Report IPE-16808
Office of Inspector General                                                                    September 2004

The U.S. Trade and Development Agency (USTDA) has an active program in India. The
agency’s mission is to promote economic development and trade in developing and
middle-income countries by
funding feasibility studies,    IN ADDITION TO MEETING WITH U.S. GOVERNMENT TRADE-
                                RELATED AGENCIES, WE MET WITH THE U.S. AND INDIAN BUSINESS
orientation visits, training    AND TRADE ASSOCIATIONS LISTED BELOW.
programs, and related
services. When deciding         Washington, D.C.
who or what to fund, the            Confederation of Indian Industries (CII)
                                    U.S.-India Business Council1
agency looks for projects that  Ahmedabad
offer significant export            CII Ahmedabad
potential for the United            Group of American Businesses (GAB2) Ahmedabad
                                Bangalore
States as well as economic          AMCHAM3 Bangalore
development opportunities           CII Karnataka
for the host country. A             Greater Mysore Chamber of Industry
                                    Indo-American Chamber of Commerce (IACC) Bangalore
USTDA official reported that    Calcutta
the agency works closely            IACC East India
with CS India and depends       Chennai
                                    AMCHAM Chennai
on Commercial Service’s             IACC Andhra Pradesh
relationships with Indian       Hyderabad
private and public sector           AMCHAM Hyderabad
                                    Hindustan Chamber of Commerce
representatives. As an              Hyderabad Software Exporters Association
example, the official credited      IACC Hyderabad
CS India as having been         Mumbai
                                    All India Association of Industries
instrumental in the success of      Franchise Association of India
the USTDA–sponsored                 GAB Mumbai
South Asia Communications           IACC Mumbai
                                    Visit USA Committee India
Conference held in April        New Delhi
2004 in New Delhi.                  AMCHAM New Delhi
                                               CII New Delhi
                                        Federation of Indian Chambers of Commerce & Industries
Orientation visits bring                     (FICCI)
foreign procurement officials           IACC New Delhi
interested in purchasing                National Association of Software & Services Companies (NASSCOM)
American goods and services       1
                                    A large policy development organization promoting American economic interests in
to view U.S. technology and       India.
                                  2
products first-hand. In 2003,       GAB members are wholly owned U.S. subsidiaries in smaller cities.
                                  3
                                     The American Chamber of Commerce. AMCHAM has over 300 members, typically
CS India supported four           American companies operating in India and Indian/U.S. nationals living in India.
USTDA-funded orientation          AMCHAM works closely with the policy groups of the U.S.-India Business Council

visits. According to post,
one of the visits—to companies in the coal bed methane industry—resulted in the
purchase by an Indian firm of $870,000 worth of services from two U.S. companies that
were new to the Indian market. Post reported that another visit—supported by the U.S.­
Asia Environmental Partnership as well as USTDA and CS India—led to the sale of a
$70,000 aeration system for a new-to-export U.S. company in the pulp and paper
industrial sector. According to an internal ITA report, a 2004 orientation visit to
renewable energy firms, supported by CS India, resulted in a number of business
agreements between some of the U.S. companies visited and the Indian delegates.



                                                        8

U.S. Department of Commerce                                                  Final Report IPE-16808
Office of Inspector General                                                          September 2004

The U.S.-Asia Environmental Partnership (USAEP)--a program of the U.S. Agency for
International Development--works with the U.S. and Indian governments,
nongovernmental organizations, and businesses to facilitate sustainable solutions to
India’s environmental challenges. USAEP works with CS India to identify U.S. sources
for specialized technologies sought by Indian clients to address these challenges. For
example, an Indian environmental engineering company requested help finding U.S.
incinerators for hazardous waste management projects. CS India and USAEP identified
appropriate U.S. vendors, and the post also counseled the Indian firm on doing business
with the U.S. As a result of these efforts, CS India reported that a U.S. company signed
an agreement for roughly $575,000 to provide engineering and design support services to
fabricate three incinerator facilities in 2003. In another instance, an Indian environmental
engineering company asked for help locating industrial separation and purification
technologies. CS India counseled the company and provided contact information for a
U.S. firm. In July 2003, CS India reported that the U.S. company exported products
worth more than $55,000 to the Indian firm.

Other ITA Components. According to officials at ITA’s other trade bureaus—Market
Access and Compliance (MAC) and Trade Development (TD),23 CS India has been
responsive and informative throughout the entire period they have worked with the
post—13 years in the case of one official. MAC trade specialists focus on trade issues of
particular countries, and TD officials are industry-sector specialists.

We spoke with MAC’s India desk officer and TD trade specialists for
telecommunications, e-commerce, information technology, and energy—sectors that in
2003 were ranked by Commercial Service and the Department of State as among the best
prospect sectors for U.S. exports to India. ITA trade specialists we interviewed said that
CS India responds quickly to their requests for information and provides willing
assistance in numerous other areas, such as arranging meetings for visitors and
organizing trade events. One specialist remarked that even if CS India doesn’t have the
lead for a particular project, post staff advises the team on which Indian officials to meet
and works persistently to arrange the meetings.

Advocacy Center. The goal of U.S. government advocacy assistance is to expand U.S.
exports and export-related employment as a means of promoting U.S. economic health
and well-being. ITA’s Advocacy Center helps U.S. businesses obtain contracts in
industries controlled by foreign governments or quasi-foreign-governmental entities, such
as utilities and airlines. The center acts as a central repository of information on how to
compete in foreign markets, issues advocacy guidelines, and determines whether and to
what extent U.S. government support is appropriate for transactions involving U.S.
interests. Commercial Service plays an integral role in advocacy efforts, through its
contacts with foreign government and business leaders.


23
  Effective July 30, 2004, Department Organization Order 40-1, transferred trade promotion
responsibilities of ITA’s former Trade Development to CS, and renamed Trade Development as
Manufacturing and Services.



                                                 9

U.S. Department of Commerce                                           Final Report IPE-16808
Office of Inspector General                                                   September 2004

The Advocacy Center reported that CS India has assisted with the second highest number
of advocacy cases of all CS posts (17 in the past 2 years) and has been very responsive to
requests for assistance. Senior officials at the embassy and both consulates (Chennai and
Mumbai) also told us that the post’s commercial officers are knowledgeable and involved
in all appropriate advocacy cases, providing such assistance as arranging advocacy-
related meetings between visiting U.S. officials and Indian government representatives or
attending such meetings on behalf of U.S. companies, and conducting advocacy-related
research. In one example of the post’s involvement in an advocacy success, post reported
that a U.S. company received a $12 million contract to improve environmental protection
at two Indian refineries. In May 2004, CS India had requests from the center for help
with 11 projects pending in India.

Trade Compliance. Established in 1996, the Trade Compliance Center (TCC)
coordinates with ITA’s Trade Development office, Commercial Service, and other U.S.
government agencies that help U.S. companies further their international market
presence. According to the CS Operations Manual, the role of Commercial Service is
limited to encouraging disputing parties to settle their conflicts without adjudicating or
acting as an advocate for one particular side. The guidance outlines detailed procedures
for when and when not to handle a trade complaint.

CS India provided in-country support to ITA’s MAC desk officer, offering background
information on Indian government policies in an expedited manner or organizing
meetings between parties to promote communication and resolution of the trade dispute.
The desk officer reported that, as of April 2004, India was involved in five trade
compliance cases. The post has been involved in at least one case regarding imports of
135 commodities subject to Indian quality standards. Exporters of these goods are
required to register with the Bureau of Indian Standards and pay an ad valorem (i.e.,
based in proportion to its value) fee certifying they meet the quality standards before they
can send shipments. CS India facilitated a meeting between a U.S. exporter and Indian
representatives to discuss this market barrier. According to ITA’s MAC desk officer,
import fees should not exceed the approximate cost of services and as a result the World
Trade Organization Committee on Technical Barriers to Trade was notified of the
certification fee requirement and the Indian government subsequently reduced the fees.
However, the desk officer reports the fees are still not standardized.

B. New SCO Has Restructured Post Operations

Several factors impacted CS India’s operations during FY 2002 and FY 2003: all
American officers and their families were evacuated from post between May 31 and July
29, 2002—leaving the post with no American management presence for about 2 months.
In February 2003, at the direction of CS headquarters, the previous SCO left the India
post early to fill another vacant SCO position; this left CS India to operate without a
senior officer for 5 months. The deputy SCO had to manage the entire operation with
only the assistance of a junior officer in New Delhi. CS India staff stated that the deputy
SCO tried to meet all the demands of running the post, but operations suffered.




                                            10 

U.S. Department of Commerce                                            Final Report IPE-16808
Office of Inspector General                                                    September 2004

At the time of our visit in May and June 2004, the SCO had been at the post about 10
months and had already visited all seven CS India offices and met with all staff. The
deputy SCO, both PCOs, the commercial officer in New Delhi, and CS India staff
consistently told us that the SCO has provided the post with a clear focus and sense of
direction. Commercial officers stated that he is accessible and responsive, despite the
large territory and number of offices he
oversees. To promote better responsiveness
throughout the post, the SCO has instituted a         “The SCO’s leadership by example is
                                                     very motivating.” --CS India staff
post-wide policy that CS India must respond to
all e-mails within 24 hours. Staff told us that
although it is not always easy to comply with
this policy, the SCO leads by example and works long hours to ensure he meets the 24­
hour deadline as well.

Strong focus on reporting and record keeping. Staff stated that the SCO has set a strong
management tone, and refocused the staff’s efforts on export successes—CS’ primary
performance measure. He implemented a targeted strategic plan for FY 2004 that has a
goal of doubling the post’s export successes over FY 2003. He stresses the importance
of staff follow-up with clients who were previously counseled, and has emphasized to the
U.S. Ambassador and other embassy colleagues that CS’ core mission is to assist U.S.
exporters—and that export successes are the measure of its mission achievement. The
SCO has also encouraged consistent use of the Client Management System (CMS) to
record and update client contacts and counseling sessions, as required by Commercial
Service. In the past, commercial specialists had used the system on an ad hoc basis. For
example, the number of clients counseled, according to CMS records, increased from 262
in FY 2003 to 719 in FY 2004.

The SCO has reduced staff participation in events that he believes do not directly lead to
export successes. For example, before the SCO explained CS’ core mission, some of CS
India’s embassy colleagues stated that they were uncertain of CS’ responsibilities and at
times would request assistance on unrelated initiatives. Further, before commercial
specialists travel to participate in tradeshows or other events, they must clearly show how
the event may lead to export successes. Additionally, the SCO has made it clear to the
other CS India officers that visa referrals are only to be submitted for contacts who are
potential importers, and thus may lead to export successes. Visa referrals are
recommendations by American officers to assist their contacts in obtaining visas from the
consular section. Our review of visa referrals in Mumbai found that not all of them were
for potential importers of U.S. products or services. During FY 2002, CS New Delhi
submitted more than 200 visa referrals to the consulate on behalf of its contacts. So far in
FY 2004, the number of referrals in CS New Delhi has been reduced drastically, to only 1
or 2 per month.

The aggressive strategy has resulted in an increase of reported export successes. By June
of this fiscal year, CS India had jumped from a ranking of 14th to 1st worldwide in
number of reported export successes (the post reported 291 export successes for all of FY
2003, compared with 524, as of June 24, 2004). However, as discussed on page 23,



                                             11 

U.S. Department of Commerce                                                     Final Report IPE-16808
Office of Inspector General                                                             September 2004

problems with the quality of reporting exist and thus warrant continued management
attention.

Enhanced interoffice cooperation. Commercial specialists told us that the SCO has
improved interaction among the post’s seven offices: during FY 2003, the offices did not
always coordinate well. For example, CS New Delhi staff recruited companies for a
reverse trade mission in the textile industry, without involving CS Mumbai—and thereby
missing opportunities for U.S. firms to meet with companies from the lucrative western
part of the country. The SCO has initiated methods for improving teamwork—in
February 2004, for instance, he brought all staff to New Delhi for an all-hands meeting
and training session on customer relations. Staff reports that such activities have
enhanced collaboration. In addition, CS Delhi coordinates efforts with CS Chennai and
Mumbai regarding the Study USA program, a multi-city trade fair designed to help
American universities register Indian students. CS New Delhi handles university
recruitment and event marketing, and it communicates the names of the universities to
those posts to help CS staff there prepare for the event.

Strong support staff. CS India staff and members of the business community praised the
market knowledge of the deputy SCO and Mumbai PCO as invaluable to U.S. firms and
embassy officials. Business members also pointed to the Mumbai office’s creation of a
program called Group of American Businesses (GAB) as evidence of the PCO’s
initiative. The GAB seeks to assist wholly owned U.S. subsidiaries in cities that have no
Commercial Service offices or American chambers of commerce. Much like a chamber
of commerce, GABs provide a forum for U.S. subsidiaries to interact and share common
concerns and best practices. At the time of our visit, the Mumbai office had established
three GABs in Western India (Pune, Goa, and Ahmedabad). We met with members of
two of the three GABs, who uniformly praised the program’s usefulness. They remarked
that the PCO promoted discussions on significant areas of concern such as customs and
excise matters, Ex-Im policies, and visa requirements, and facilitated several trips by the
consul general and other embassy officials to GAB meetings in Pune.

C. CS India Does Not Help U.S. Companies Establish Outsourcing Operations

Outsourcing is the practice of
subcontracting a business function to    Foreign direct investment is a cross-border investment in
an outside supplier. In the U.S.,        which a resident (the direct investor) in one economy
                                         acquires a lasting interest (i.e., 10 percent or more of the
outsourcing most typically occurs in     ordinary shares or voting power) in an enterprise in
information technology and financial     another economy (the direct investment enterprise).
                     24
services professions. Since the          --Foreign Direct Investment in Emerging Market Countries,
Internet has enabled real-time           Working Group of the Capital Markets Consultative Group,
connectivity to low-cost offshore labor  International Monetary Fund, September 2003

pools, offshore outsourcing has been
on the rise. India—with its many English-speaking engineering, business, and medical
graduates—has become a large supplier of outsourced expertise.

24
     Drezner, Daniel W. “The Outsourcing Bogeyman,” Foreign Affairs, May/June 2004.


                                                  12 

U.S. Department of Commerce                                          Final Report IPE-16808
Office of Inspector General                                                  September 2004

Commercial Service does not have written guidelines about providing assistance to U.S.
companies interested in offshore outsourcing or other foreign direct investment (FDI) in
countries abroad. During our meetings with 25 Indian trade associations in Washington,
D.C., and India, members of several associations commented that they wished
Commercial Service would assist U.S. companies interested in outsourcing or other FDI
in India. CS India’s SCO described his office’s stance on FDI in an e-mail dated
December 5, 2003:

       For potential U.S. investors in India, whether they be service
       providers or manufacturers, CS India only provides general briefings
       on market opportunities and doing business in India issues. We do
       not generally involve ourselves with the FDI efforts of U.S. firms.
       However, after a U.S. firm has invested in India, we will advocate on
       their behalf, as well as assist them with issues they may have with
       the Government of India. We are prudent about [not] creating any
       perception that we are facilitating the export of American jobs,
       especially since our primary mandate is the promotion of U.S.
       exports by small and medium enterprises.

This advice was circulated to CS headquarters officials as well as to a senior counsel in the
Department’s Office of Chief Counsel, who commented that this approach seemed reasonable.

CS India commercial specialists had a clear understanding of their mission and the SCO’s
guidance on outsourcing. Staff consistently told us that U.S. companies interested in
establishing outsourcing operations in India generally do not seek assistance from CS
India. According to the staff, these companies are well-versed in setting up their
operations, but a few may ask CS about general market conditions in India. Further,
commercial specialists stated that there are many private sector companies that specialize
in outsourcing, and companies usually seek their assistance—not CS’. However, the
trade associations and Indian companies we spoke with complained to us that CS’
mission is “too narrow” because it only promotes U.S. exports, not bilateral trade.

D. ANESA Region Provided Untimely Support During FYs 2002 - 2004

CS India is organized under OIO’s Africa, Near East, and South Asia (ANESA) region,
and reports to the regional director of that office. We reviewed a number of requests for
guidance or assistance that the SCO made to ANESA region staff during FYs 2003-2004.
Many of the issues raised had clear implications on post operations. However, it appears
that the ANESA region staff did not always acknowledge and were not responsive to the
requests for guidance by the post. For example, the SCO did not receive timely
responses when he sought the ANESA region’s input regarding a December 8, 2003,
meeting called by the deputy chief of mission to address the possible relocation of CS
New Delhi. Such a move had the potential to affect CS’ office locations, operations, and
budgets—all issues ANESA region staff should have been concerned about. After
receiving no response, the SCO e-mailed ANESA region staff, saying, “I’ve written at
least fifteen emails…since early September…and have neither received an answer, nor a



                                           13 

U.S. Department of Commerce                                                 Final Report IPE-16808
Office of Inspector General                                                         September 2004

simple acknowledgement for them.” On December 3, 2003, the acting deputy director
responded and scheduled a conference call between the SCO and the regional director for
December 11—3 days after the meeting with the deputy chief of mission was to be held.

Further, in May 2004, the SCO sought the ANESA region’s guidance on trade event
collections totaling about $15,000. Although ANESA staff had some communication
with post regarding this issue, the region did not follow up with CS headquarters officials
to provide a definitive answer to post until July 30, after we became involved with the
issue (see page 35 for a detailed discussion).

ANESA region staff acknowledged to us that they did not provide timely responses to
many issues raised by CS India, and the regional director gave several reasons why:

     • 	 Because of the SCO’s glowing reputation within the Commercial Service, she
         believed the post was on “auto-pilot” and did not require much guidance.
     • 	 Iraq had been added to the ANESA portfolio of countries, and occupied much of
         the region’s time, until February 2004, when a country manager was assigned
         primary responsibilities for Iraq.
     • 	 The deputy director’s position for ANESA was vacant for 5 months (from August
         2003 to December 2003) and this absence added to the existing staff’s
         responsibilities.

The ANESA regional director told us that she visited India during January 2004,
primarily to attend the all-hands meeting organized by the SCO and CS’ customer
relationship training (January 22-25). During this visit, she stated that she spent some
time meeting with CS India staff and visiting the New Delhi office.

Regional directors, and the OIO in general, are responsible for overseeing many posts
from a distance. Under such conditions, it may be difficult to stay fully involved with
each post’s operations and staff activities. However, the regional staff serve as post’s
focal point for headquarters guidance and assistance. Thus, it is critical that the ANESA
region staff provide timely responses to the post, especially regarding such issues as
staffing and other resources.

In previous OIG reports, we have cited the problems caused by inadequate oversight to
the posts by headquarters staff, and we reiterate our concerns here.25 We are pleased to
note that the ANESA region and OIO, after being briefed on our initial review results,
took some immediate steps to improve its managerial oversight of CS India. Specifically,
the new ANESA regional director, who assumed the position in June 2004, plans to visit
CS India in October 2004, to follow up on our recommendations and better understand
post operations.



25
  The Commercial Service Needs to Improve Management of Its Operations In Turkey, OIPE-15370;
Recent Overseas Inspections Found US&FCS Delivering Services Effectively But Facing Internal
Constraints, September 1997, OIPE-9178.


                                                14 

U.S. Department of Commerce                                                        Final Report IPE-16808
Office of Inspector General                                                                September 2004

E. CS India’s Staff and Space Utilization Warrant Management’s Attention

Given India’s size and recent growth as a market for U.S. exports, it is important that
Commercial Service carefully position itself and its staff resources to capitalize on these
trends and provide optimal service to U.S. companies. We evaluated CS India’s staff
utilization and found that at least 46 percent of post employees are performing
administrative functions, e.g. answering phones, coordinating U.S. government visitors,
financial operations, chauffeuring, etc. (See figure 3).

Figure 3. CS India's Actual Utilization of Foreign Service National Staff as of July 2004

                     Commercial Work                                 Administrative Work
                                             TOTAL                                                       TOTAL
    LOCATION   Commerc’l Commerc’l Commerc’l Com’l       Commerc’l Commerc’l Admin
                                  1        1                      1        1         Secretary Chauffeur Admin
               Specialist Assist.    Clerk                Assist.    Clerk   Assist.
Ahmedabad          1                  0.5       1.5                   0.5                       1        1.5
Bangalore          1        0.5                 1.5          0.5                                         0.5
Calcutta           1                  0.5       1.5                   0.5                       1        1.5
Chennai            2        0.5       0.5        3           0.5      0.5      1       1                  3
Hyderabad          1                             1                                                        0
Mumbai             4         1        0.52      5.5          1        0.52     1                2        4.5
New Delhi          5         2                   7           2         23              1        2         7
   TOTAL          15         4         2       21      4               4       2      2         6        18
Source: FCS Staffing Pattern, July 2004 and FCS management
1
  Based on interviews with foreign service nationals and our review of their survey responses on their job
responsibilities, we determined that on average commercial assistants and most commercial clerks spend
their time performing commercial functions and administrative functions. For example, we found three of
the six commercial clerks are responsible for managing the Business Information Center (BIC), a primary
CS service, along with performing administrative tasks. As a result, we counted most of these positions as
half-time positions under both the commercial and administrative categories.
2
  The commercial clerk in Mumbai is not responsible for the BIC but performs some commercial work in
managing industry sectors.
3
  In New Delhi, one commercial clerk is primarily responsible for financial management operations and the
second is a secretary. These were counted as full administrative positions.



For example, at least 49 percent of Mumbai’s foreign service national positions perform
administrative functions, as do 50 percent in Chennai and 50 percent in New Delhi.
Post-wide, CS India has the equivalent of 21 foreign service nationals performing core
mission duties, such as trade promotion, outreach, and counseling, and 18 handling a mix
of nontrade-related functions. As CS India continues to expand its reach and portfolio, we
recommend that post managers reassess staffing utilization and placement to increase
resources devoted to commercial functions.

Further, CS India should reevaluate its need for chauffeurs and vehicles at three of its
offices. We found that Mumbai had two drivers and only one American officer (the
PCO), and Ahmedabad and Calcutta had one driver each, with no American officers on
board in those offices. FSNs primarily utilized the chauffeurs in their respective offices.

Although CS guidelines do not preclude foreign service nationals from having drivers,
many CS staff at post and at headquarters stated that this was not the norm, and that


                                                      15 

U.S. Department of Commerce                                           Final Report IPE-16808
Office of Inspector General                                                   September 2004

usually only officers have drivers and vehicles. Although parking is difficult in India,
taxis and other forms of transportation are readily available.

The PCO and SCO told us that Mumbai was assigned two drivers and vehicles at a time
when the office had two American officer positions. Though only one officer position
remains, the PCO explained that the second driver is sometimes needed to courier
documents to and from the consulate. Because the drivers are not needed full-time, they
are also tasked with photocopying and answering phones—supplementing the work of
four other administrative personnel. From our observations, it appears that the drivers are
underutilized and that Mumbai may need no more than one.

Staffing in Hyderabad office. Hyderabad—the fourth fastest growing city in the world—
has only one foreign service national commercial specialist, and when he is out of the
office for meetings, travel, training, or leave, the Hyderabad office is closed. The office
has no voicemail system, so in his absence, the city has no CS presence. Although we
understand that CS has many one-person posts like this worldwide, in light of the market
potential of this city, CS India should consider shifting resources from one of the post’s
other offices to Hyderabad. We discussed this with the SCO and he agreed with our
conclusions.

We also noted during our visit that none of the CS offices have voicemail capability, even
though voicemail is commonly used in India for business purposes. CS New Delhi staff
stated that they looked into getting voicemail but that it would require complete rewiring
of the office and was thus cost-prohibitive. However, several other offices stated that
voicemail is readily available (i.e., no re-wiring necessary) and desirable in their
locations.

Space and Locations of Some CS India Offices Need Reevaluation

We noted that the CS New Delhi office appeared to have much unused office space at its
current location in the American Center. When we discussed this with the SCO, he
agreed and stated that in his opinion, about half the amount of space it currently occupies
is unnecessary. The post pays approximately $66,000 per year in rent. CS India leased
the space when New Delhi had a larger staff, and thus required more space. The SCO
and other embassy officials told us that there is a plan to move the New Delhi office into
the embassy once renovations to the embassy complex are completed. However, no date
has been set for this proposed move and no construction has begun. Added to the wasted
space are a number of security concerns at the current location [see Appendix C (page
61) for a complete discussion of security weaknesses]. Given these two issues, it seems
prudent for CS to consider relocating or downsizing the New Delhi office.

The SCO has identified two viable alternatives for the CS office. We discussed the
possibility of the post moving to one of these locations with CS headquarters officials,
who stated that they would consider it.




                                            16 

U.S. Department of Commerce                                          Final Report IPE-16808
Office of Inspector General                                                  September 2004

The Bangalore and Hyderabad offices are located in luxury hotels: CS Bangalore
occupies four rooms in a 5-star American hotel, while the Hyderabad office is in two
rooms of an Indian hotel chain. Members of the business community in Bangalore told
us that they found it odd that a U.S. government office would be located in a hotel when
other commercial space is readily available. We agree. The foreign service nationals in
both offices cited increased security as a reason for being in hotels. However, hotel
security did not question us or other guests entering the premises. In addition, both
offices had their own on-site security guards—a protection they could readily transfer to
other commercial space.

The lease for the Bangalore space expired April 30, 2004, and the office is now on a
month-to-month arrangement. While on site we discussed this matter with the SCO and
he stated that he would consider relocating to other commercial space. In a subsequent
e-mail dated August 20, 2004, the DSCO informed us that CS is currently paying 64.50
rupees (Rs.) per square foot per month, but is now in the process of negotiating for
alternative commercial space at a cost of Rs. 30-40 per square foot per month.

RECOMMENDATIONS. Commercial Service should do the following:
  • 	 Evaluate staffing allocation and utilization throughout India to ensure it 

      appropriately supports the CS mission. 

  • 	 Explore options to potentially reduce CS India’s rent obligations and thereby
      improve the post’s cost-effectiveness, as appropriate.
  • 	 Assess the feasibility of equipping offices with voicemail.



In responding to our draft report, ITA agreed with our recommendation that staffing
allocation and utilization throughout India should be evaluated, and stated that it would
pay particular attention to the question of resources, in light of recent reductions in
operational resources and personnel staffing. It further stated, that in 2004, to reduce
charges under the State Department Capital Security Cost Sharing Program (CSCSP), it
eliminated vacant positions worldwide, including 8 vacant positions in India for which it
did not have current funding. OIO said that it would look at the impact of these cutbacks
and other resource allocation issues on India operations when the Regional Director visits
four of the seven posts in October 2004. Both the Regional Director and the SCO will
review current resource allocation and look for ways to optimize available resources.

ITA further noted that “the SCO disagrees with the IG’s view that too many staff are
engaged in administrative work.” Although the SCO did not dispute our finding that at
least 46 percent of post employees were performing administrative functions, he pointed
out that a number of these employees, such as those in CS Mumbai, perform multiple
duties including some previously handled by former staff who have not been replaced.
The SCO maintained that all the duties performed by current CS Mumbai staff, whether
they are considered to be commercial or administrative in nature, are essential to the
office’s operation.



                                            17 

U.S. Department of Commerce                                            Final Report IPE-16808
Office of Inspector General                                                    September 2004

With regard to our recommendations that CS review opportunities to reduce space and
CS India’s rent obligations, CS said that the Regional Director will also review this,
along with the SCO, when he visits post in October. Given the plans to bring CS into
new embassy or consulate space in New Delhi, Mumbai and Chennai, CS noted that the
costs of moving twice within a few years and the disruption to operations might
overwhelm any cost savings to be gained. It also stated that the rent in New Delhi is a
“rather modest $66,000 per year.”

During our meetings with CS and embassy officials in New Delhi, they indicated that
plans to bring CS into a new embassy were more than a few years in the future. As noted
in our draft report, no date has been set for the proposed move, and no construction has
begun. As also noted in our draft report, the SCO expressed the opinion that about 50
percent of CS New Delhi’s space was not necessary. In view of CS India’s resource
constraints, CS’ increasing ICASS costs, and anticipated charges to CS under the State
Department’s Capital Security Cost Sharing Program, CS managers should seriously
consider options, such as downsizing its current space, to decrease rent obligations. We
request that CS provide details of the RD’s assessment in its action plan.

With regard to the Bangalore and Hyderabad offices, CS stated in its response that
according to the SCO, the present locations were the best available when CS was
searching for space. According to CS, these locations were approved by the Regional
Security Officer and complied with U.S. government contracting and security
specifications. In response to our recommendation, CS stated that post would prefer to
relocate to other commercial office space, given the right circumstances.

We are pleased to see in its response that Commercial Service has allocated FY 2004
funds to CS India for the purchase of voicemail systems, where feasible and appropriate.

Finally, CS indicates that official vehicles and drivers are intended for use by the entire
staff, not only officers. CS stated that there was nothing improper in having cars and
drivers for local staff use, and the post’s policy complies with the mission policy in India.
CS stated that according to an Administrative Notice dated February 28, 2001, all
employees of the U.S. Consulate Mumbai are entitled to use official vehicles for official
business.

Although ITA’s response indicated that the SCO maintains that the taxis in Mumbai, and
generally throughout India, are old, dangerous and not suitable for FSNs who need to
attend business meetings “in proper condition,” we note that the Commercial Specialist in
Hyderabad, the fourth fastest growing city in the world, performed his duties with no car
or driver.

Our report did not question CS India’s authority to use cars and drivers for FSNs as well
as officers. The post and CS headquarters should decide whether CS India’s current
resource distribution is the best possible utilization of its limited resources and provides
the best service to U.S. exporters.




                                             18 

 U.S. Department of Commerce                                                        Final Report IPE-16808
 Office of Inspector General                                                                September 2004

II. 	 Client Satisfaction is Generally Favorable But Post Library Services and Export
      Success Reports Need Closer Management Attention

 CS India provides a number of products and services to U.S. companies and other U.S.
 government agencies. To gauge client satisfaction, we sought feedback from CS India’s
 clients during FYs 2003 and 2004 (through April 2004). Clients were generally satisfied
 with the quality of the services received. In addition, we reviewed CS India’s
 International Market Insights and Industry Sector Analyses that covered a wide range of
 topics and sectors important to the Indian economy. Furthermore, we evaluated CS
 India’s business information centers, which provide Indian companies with information
 about U.S. exporters through a wide variety of reference resources, to see if they help
 fulfill the post’s mission. We found concerns regarding their utilization and usefulness.

 Commercial Service measures its performance based on export success stories. As CS’s
 primary performance element, export success reporting evaluates its impact on U.S.
 firms’ exporting efforts. We performed a review of CS India’s reported export success
 stories for FY 2004 (through April 2004). Our review sought to determine CS officers’
 and foreign service nationals’ compliance with CS guidelines for reporting an export
 success. We determined that generally CS India complied with reporting guidelines.
 However, during our initial review we identified significant problems with CS Bangalore,
 CS Chennai, and CS Hyderabad’s reported export successes, and found management
 review of export success stories warrants improvement.

 Finally, we reviewed the post’s conduct of end-use checks for export licenses on behalf 

 of the Bureau of Industry and Security (BIS), which we found generally followed BIS 

 guidelines. We also share our observations on the export control attaché who is 

 scheduled to arrive in New Delhi in the fall of 2004. 


 A. Most Clients Whom We Interviewed Were Satisfied with CS India's Products and 

    Services


 To gauge U.S. companies’ satisfaction with the quality of CS India support, we contacted
 representatives from 31 of the 98 companies that received a product or service described
 in figure 4 during FY 2003 and FY 2004 (through April 2004).

 Figure 4. CS India’s Products and Services
Product or Service                                            Description
Business             Interpretation/translation services, single company promotions, use of CS
Facilitation Service facilities/space, courier services, and targeted commercial presentations.
                     One-on-one meetings between U.S. companies and potential overseas business partners
Gold Key Service
                     in a targeted export market.
International        Detailed background check on a foreign company to evaluate its potential as a partner
Company Profile      to a U.S. firm.
International        Identification of potential overseas partners to market U.S. product or service in a given
Partner Search       area. CS promises searches will be completed in no more than 15 working days.
                     Ongoing, customized support for a specified duration, scope, and fee. The service is
Platinum Key
                     tailored to a client’s needs and provides counseling and information, such as market
Service
                     identification and technical assistance.
Source: Commercial Service


                                                      19
U.S. Department of Commerce                                                      Final Report IPE-16808
Office of Inspector General                                                              September 2004

Of the 14 respondents,26 12 clients were satisfied with the service they received while 2
expressed dissatisfaction. One of the two dissatisfied clients noted that the majority of
the Indian firms with whom he met did not seem interested in what the company offered.
The client believed these firms agreed to meet with him simply to remain on good terms
with the U.S. embassy. In addition, the client felt follow-up by the commercial specialist
in CS New Delhi was poor. The second dissatisfied client was unhappy with the
appointments set up by CS New Delhi staff, claiming that they failed to perform due
diligence on potential buyers.

Figure 5 details the client feedback we received.
Figure 5. Client Survey of CS India Services
Product     Location      Comments
Business Facilitation Service
Client 1    Mumbai        “Excellent” service; praise for PCO.
Client 2    New Delhi “Fantastic,” “plentiful,” and “enthusiastic” assistance; good follow-up.
Gold Key Service
Client 3    Bangalore “Extremely fantastic job.”
Client 4    Hyderabad CS staff in Hyderabad and Mumbai were responsive to follow-up e-mails.
Client 5    Mumbai        “Great service”; would recommend the service to anyone; appointments arranged
                          by CS New Delhi were disappointing unlike CS Mumbai’s, which were
                          “excellent.”
Client 6    Mumbai        Client was unhappy with appointments arranged by CS New Delhi, claiming it
                          failed to perform due diligence on potential buyers.
Client 7    New Delhi Service did not meet expectations, poor follow-up.
Client 8    New Delhi CS Staff should reconfirm appointments before client’s arrival.
International Company Profile
Client 9    Calcutta      Quick service.
Client 10   Chennai       Satisfied with quality, but time taken to complete report could be shortened for
                          emergencies; detailed report sometimes not necessary.
Client 11   Hyderabad Service met expectations.
Client 12   Mumbai        Service and its cost met expectations.
Client 13   New Delhi “More than satisfied ... when entering a new market FCS is always the first stop.”
International Partner Search
Client 14   Chennai       “I am a happy and ‘loyal customer’ of the Commercial Service.”
 Source: OIG


CS India’s Market Research Products Adhered to CS Guidelines

According to CS data, CS India produced 55 International Market Insights (IMIs) reports
during FY 2003 and only four during the first 7 months of FY 2004 (October through
April). CS India’s FY 2004 Strategic Plan committed the post to doubling the number of
export successes over the previous year while discouraging products with “hard-to­
measure impact,” such as IMIs. According to CS India staff, this decision is justified by
the abundance of readily available market information online and through other non-fee­
based sources.

26
  We successfully contacted representatives of 16 companies but had to disregard the information from
two of them, as the representatives were no longer employed by their respective companies and no input
could be provided.


                                                   20 

U.S. Department of Commerce                                                Final Report IPE-16808

Office of Inspector General                                                        September 2004




We reviewed 13 IMIs and found that they             International Market Insights provide
                                                    information to U.S. exporters on
generally adhered to the CS Operations              international market trends. Individual posts
Manual guidelines on format and content and         are responsible for the content of the reports,
covered a variety of topics: market overviews       which are usually written by foreign service
on cosmetics, environmental technologies,           nationals. Commercial Service does not
smart cards, and telecommunications; Indian         require a minimum number of IMIs per year.
investment climate; and government health           Industry Sector Analyses provide sector-level
guidelines for gene-based medicines, to name        market research information to help U.S.
a few.                                              companies assess market opportunities for
                                                    their products and services. ISAs may cover
During the same period, CS India produced a         market trends, competition, regulations and
                                                    standards, and best sales prospects.
total of 31 Industry Sector Analyses (ISAs),        Commercial Service does not require a
according to CS data – 24 in FY 2003 and 7 in       minimum number of ISAs per year.
the first 7 months of FY 2004 – covering
sectors such as aircraft, alternative energy,     Source: Commercial Service
cosmetics, food retailing, machine tools,
mining equipment, telecommunications, and textile machinery. The ISAs generally
adhered to CS guidelines for length, format, content, and frequency of publication.

B. Business Information Centers are Underutilized and Ill-Equipped

Each CS India office maintains a business information center (BIC) to provide Indian
companies with information about U.S. exporters. The centers contain a wide variety of
resources—company directories, trade journals, periodicals, and company and product
catalogs—are open to the public, and accept walk-in visitors as well as telephone and e-
mail inquiries.

                  Business Information Centers at CS India Offices




     CS Ahmedabad             CS Bangalore          CS Calcutta               CS Chennai




                  CS Hyderabad            CS Mumbai             CS New Delhi

We reviewed visitor logs for March 2004 (typically, a higher-than-average month for
visitors) and interviewed the BIC staff at each office. We found great disparity in the


                                             21 

U.S. Department of Commerce                                                        Final Report IPE-16808
Office of Inspector General                                                                September 2004

number of walk-ins to the centers. In addition, BICs at many offices take up a significant
amount of total office space (see figure 6).27

Figure 6: BIC Visitors and Office Space
                                                                                          Percent of
                       Number of Visitors         BIC Space        Total CS Office
     Location                                                                           Total CS Office
                         (March 2004)              (sq. ft.)       Space (sq. ft.)
                                                                                            Space
 Ahmedabad                       10                   717                1442                  50
 Bangalore                       24                   486                1577                  31
 Calcutta                        92                   406                812                   50
                                                                                               31
 Chennai *                       16                538 (710)         1765 (2357)
                                                                                              (30)
 Hyderabad                        10                  692                 1956                 35
 Mumbai                            4                  822                 5716                 14
 New Delhi                        87                  624                 6865                  9
 * Revised measurements in parentheses are effective for FY 2005.
Source: CS India (all figures are rounded to the nearest square foot or percent)

While two posts reported large numbers of visitors during this single month, foreign
service nationals who manage the centers told us that the BICs receive, on average,
between 7 and 10 visitors per week.28 At CS Mumbai, the BIC manager estimated that he
receives 2 visitors per month. Some mentioned that serious visitors—business
representatives readily interested in importing from U.S companies—are only a fraction
of the total number of recorded visitors. BIC traffic has been in decline in recent years
for several reasons: stringent security requirements at U.S. diplomatic missions, outdated
publications, and the alternative availability of company information online. However,
CS staff informed us that they receive information requests via the phone or e-mail (we
could not confirm this statement because not all BICs maintain phone inquiry logs).
Given the low number of visitors, some CS posts in India are incurring expenses for
space that is underutilized.

We confirmed the problem with dated resources: some centers had business directories as
much as 8 years old. For example, CS New Delhi had an Encyclopedia of Association
(sic) dated 1997, a 2000 Standard and Poor’s Register, and a 1999 Thomas Register. CS
Mumbai’s BIC contained a 1998 Thomas Register, a telecommunications business
directory from 2000, and a food processing industry directory from 1995. CS Hyderabad
had an American Chamber of Commerce Directory and a National Trade and
Professional Association Directory, both from 2000.

CS India reported that no funds for new publications were provided in FY 2003. In July
2004, CS staff stated that it would use FY 2004 funds to order publications for all its
posts by the end of August 2004. However, with company information widely available
on the Internet, the value of the BIC as an information resource has diminished.
American officers and FSNs at each CS office informed us that they would like to create

27
   In the case of CS New Delhi, while the BIC takes up less than 10% of total office space, the SCO has 

stated that this office has approximately 50% more space than necessary; therefore, the New Delhi BIC

takes up significantly more space (20%) if compared to utilized office space. 

28
   This estimate is based on information provided by 5 of the 7 BIC managers. 



                                                     22 

U.S. Department of Commerce                                         Final Report IPE-16808
Office of Inspector General                                                 September 2004

“virtual BICs” that would utilize more online services and subscription-based databases,
allowing FSNs to conduct research faster and give the BICs access to the most current
publications. When we discussed the use of such online services and subscription
databases with CS headquarters officials, they indicated some interest into looking into
providing such services for CS’ BICs on a worldwide basis.

RECOMMENDATIONS: Commercial Service should evaluate the concept and mission of
the BICs in their present form. This evaluation should consider, for example, the amount
of space utilized by the BICs and whether the BICs should utilize more online services
and subscription databases.



In its response, Commercial Service stated that the ANESA regional director allocated
FY 2004 funds to CS India to purchase subscriptions to online services and databases for
use in the BICs. In addition, both he and CS India’s SCO would evaluate options for
creating “virtual BICs” and reducing BIC space on a case-by-case basis. We would
appreciate receiving the results of this evaluation when it is completed.

C. Export Success Reporting Has Improved but Needs Better Management Review

The number and value of export successes are Commercial Service’s primary
performance measures for judging its impact on U.S. firms’ exporting efforts. This data
is provided to Congress and OMB. These numbers must be accurate, and it is important
that individual posts follow reporting guidelines in the CS Operations Manual to ensure
their numbers are correct.

Commercial Service personnel report the details of each export success in the Client
Management System. CS officers are responsible for reviewing and approving all export
successes listed in CMS. Upon their review, approved success stories are posted to CS’
e-Menu and credited to the participating offices. In response to prior OIG
recommendations, the Commercial Service has taken or plans to take a number of actions
to improve the accuracy of export success reporting. For example, it is working to (1)
train its managers and staff on current reporting procedures and (2) put several quality
control measures in place. However, CS revised its export success criteria for FY 2004,
and the new U.S. Commercial Service Performance Measures and Reporting do not
provide specific written guidance for maintaining quality control. The only stated
responsibilities for approving officials are that they ensure the language of the export
narrative is coordinated with those individuals receiving credit and check for duplicate
reports. There is also a vague statement that “local managers will ultimately decide what
will be approved.” The previous export success guidelines specifically outlined an
accountability system for posts and CS headquarters, giving detailed descriptions of the
responsibilities of each:

         EPS managers and staff are responsible for reporting performance
         statistics consistent with this guidance. Product Managers provide



                                           23 

U.S. Department of Commerce                                                       Final Report IPE-16808

Office of Inspector General                                                               September 2004


           quality control certifications by completing approval fields in the
           CMS database. Office Directors spot-check Export Success reports
           and generate quarterly performance reports based on the data in
           CMS. CMS entries must include sufficient supporting
           documentation such that anyone reading the documentation would
           understand the link between the CS service provided and the result
           reported.

As indicated above, under the prior export success reporting guidelines, each office was
required to verify the export success, compared to the limited review currently in place.
While officers must approve each export success, the current guidance does not require a
detailed review of each export success or a “spot-check” by the office director. We
discuss later in this section several examples of export successes that were problematic
but approved with limited review.

Both the previous and FY 2004 guidelines do require the narrative to demonstrate that
value-added assistance contributed to the success. However, it is difficult to ensure
accurate reporting when the new guidelines do not include details for claiming “value­
added” assistance, and precise guidance for reporting specific types of success stories
(e.g., harvesting successes, client counseling, trade events). For example the previous
guidelines stated,

           A client counseling session occurs when the post provides value-
           added and customized counseling to a U.S. client or a local firm. If
           there are four firms attending the same meeting, and each firm
           receives value-added and customized counseling, this would count as
           four counseling sessions. Merely serving as a library disseminating
           information to 1000 visitors is not enough, nor is sending out a flyer
           to 1000 potential trade fair attendees. Rather, there must be that
           extra step taken which demonstrates how CS staff personally assisted
           U.S. firms to identify and contact a business contact, or assisted local
           firms to identify and contact U.S. suppliers, or helping either to
           execute the transaction or contract.

The revised guidelines for counseling merely state, “you can claim an export success if it
can be demonstrated that there is a link between the counseling provided and the export
transaction, signing of an agency agreement, etc.”, without going into the details, as
described above. Currently there is no guidance between what is considered counseling
versus value-added assistance.29 The example mentioned above, providing information to
1000 visitors and claiming the interaction as counseling, is no longer mentioned as “not
enough” to be claimed as value-added in the revised guidelines. In addition, if the post is
not using CMS, the only verification of this link is through supporting documentation,
which should validate the success story.


29
  The new guidelines do say “see the operational guidance for definition of value-added assistance”, but
the October 2003 guidance was the only one available.


                                                    24 

U.S. Department of Commerce                                                      Final Report IPE-16808

Office of Inspector General                                                              September 2004


In June 2004, CS’ e-Menu resource page posted “how to” informational material for
export successes. Among these were CMS Export Success Record Guidance, Entering
Export Successes, Editing Approved Export Successes, and FAQs for Export Successes.
While these documents provide limited reference to the post and CS headquarters review
and approval process, they do not provide a clear explanation for what is acceptable
value-added assistance. We encourage CS to expand on this informational material and
include it in a revised version of its CS performance measure guidance.

Without clear quality control procedures to verify that the information provided in the
export success and supporting documentation meets CS guidelines, quality assurance
appears to be left primarily to the success story author, rather than the SCO and CS
headquarters. This reduces the reliability of Commercial Service’s primary performance
measure, as inaccurate performance reporting is unlikely to be identified.

CS India Dramatically Increased Reported Export Successes in FY 2004

Our review of the post’s export success stories for the last three fiscal years revealed a
post with changing priorities. From FY 2001 to FY 2003, CS India reported an aggregate
10 percent decrease in export successes. But for FY 2004, the number increased 241
percent over the previous fiscal year.

Figure 7: CS India’s Reported Export Success Stories

                CS India Reported Export Successes* - as of June 22, 2004
   600
   500
                                                                                            505
   400
   300
   200
                      167
   100
                                                                       148
     0
                                              136
               FY 2001                 FY 2002                 FY 2003                 FY 2004
   *Export success stories initiated and approved by CS India. This does not include all
   export success stories CS India participated in worldwide.
Source: e-Menu, Commercial Service, June 2004.

As mentioned in Finding I, CS India’s FY 2004 Post Strategic Plan established a
performance target of doubling its export successes over the previous fiscal year. The
plan discourages initiatives that are hard to measure or have an ambiguous focus—a clear
realignment of management priorities. As noted previously, last year, CS India reported
55 IMIs compared to only 4 in the first 7 months of this fiscal year. Visa referrals
dropped from 260 in FY 2002 to an average of 1 or 2 per month in FY 2004—a result of
the new SCO’s ban on processing referrals that do not directly relate to a potential export
success. The SCO is encouraging active client follow-up, i.e. harvesting, and providing a
strong focus on improved post performance. He is also requiring staff to consistently
document clients counseled in CMS as shown by an increase from 262 in FY 2003 to 719


                                                   25 

U.S. Department of Commerce                                                             Final Report IPE-16808
Office of Inspector General                                                                     September 2004

so far this fiscal year. When we asked the SCO and staff about how they intended to
maintain these high performance levels, they stated that they would focus on cities that
did not have post offices in them (“second-tier” cities) and increased outreach to Indian
importers. However, one FSN noted that pressure to emphasize this year's success stories
causes staff to neglect efforts, such as, counseling, trade promotion, and meeting new
clients & markets, that will result in success stories next year.

CS India was ranked number one worldwide for assisting30 in the most export success
stories as of June 2004, having reported involvement in 524 (7.3 percent of all export
successes) compared with 291 (2.1 percent) in the previous fiscal year.31 This export
success performance—if maintained—could keep India in its new position.

               Figure 8: Reported Worldwide Export Success Rankings
                           # of    % of                                                    % of
                                                                            # of success
            RANK Country success worldwide             RANK Country                      worldwide
                                                                              counts*
                         counts* total                                                     total
                            FY 2003                            FY 2004 - as of June 24, 2004
                1    Mexico     823         5.8            1    India     524 (474)** 7.3 (6.6)**
                2    Brazil     668         4.7            2    Mexico         413         5.7
                3    Japan      601         4.3            3    China          341         4.7
                4    China      582         4.1            4    Nigeria        284         3.9
                5    Germany 513            3.6            5    Egypt          279         3.9
                6    Canada     512         3.6            6    Japan          272         3.8
                7    Egypt      408         2.9            7    Brazil         259         3.6
             ...14   India      291         2.1

            Worldwide Total 14,089                      Worldwide Total 7,218 (7,168)
             *Totals for each country include export success stories initiated and approved by other
              offices—CS India FY 2003-148 and FY 2004 505. Both the initiating and participating
              offices receive the same credit for their involvement in an export success.
            ** The revised figure reflects 50 export success stories CS India removed, withdrew, or
               combined as a result of our review.
                Source: e-Menu, Commercial Service, June 2004

Export Success Stories Reported by Four Offices Generally Meet CS Guidelines, but
Reporting by Three Offices is Problematic

For FY 2004 (through April) CS India initiated and approved 419 export successes.32 We
reviewed a 20 percent random sample of these, plus any additional export successes with
reported values totaling $5 million or more, to determine whether staff and officers had

30
   Posts can now receive credit for participating in an export success initiated and approved by another 

office. During our sample, we only reviewed export success stories initiated and approved by CS India 

since this post was responsible for the entire process.

31
   This includes the export success stories CS India initiated and approved (FY 2004-505 and FY 2003-148) 

shown in Figure 7. 

32
   CS India participated in a total of 524 export success stories as of June 2004. This includes the 505 it 

initiated. We focused on the 419 of the 505 the post had initiated at the time of our sample review (April 

2004). 



                                                       26 

U.S. Department of Commerce                                                      Final Report IPE-16808
Office of Inspector General                                                              September 2004

followed CS reporting guidelines. Our initial sample of 94 export success stories
included 54 from Ahmedabad, Calcutta, New Delhi, and Mumbai (ACDM) and 40 from
Bangalore, Chennai, and Hyderabad (South India).

ACDM sample. To assess the validity of the reported information, we reviewed
supporting documentation provided by the post and contacted 13 clients from our ACDM
sample to confirm the information. We determined that all 13 of these approved
successes followed CS guidelines. Our review of the remaining sample (41) found
ACDM generally kept sufficient documentation to support CS assistance and the
narratives, but noted several narratives that failed to indicate when the export success or
counseling took place, or that had outdated U.S. company contact information.

In our review of the 41 success stories, we found two success stories that clearly did not
meet CS guidelines for an export success. In one case, the company had contacted CS
Mumbai as it faced a fast-approaching deadline: the items in transport were needed for a
trade show the following day, and the office helped the company clear the items through
customs to enter India. The PCO believed this export success was an example of due
diligence for having helped the company avoid financial harm or loss. However, per CS
guidelines, the assistance had to have helped the company determine the legitimacy of a
business deal or contract, or avoid a fraudulent sale, and thus avoid financial harm or
loss. While Mumbai provided valuable assistance and helped the company retain its
investment at the trade show, the assistance did not meet CS guidelines for an export
success.

In the second case, CS Mumbai helped an Indian client obtain a visa to travel to the U.S.
and rent video equipment. The export success narrative states that the office helped a
company rent camera equipment while filming a movie in the U.S. According to CS
guidelines, an export success occurs in a foreign market—a country or region outside of
the U.S.—and visa referrals are not considered export successes if the assistance does not
lead to an export sale. We do not question the legitimacy of CS’ assistance, only the
validity of the export success claim. The reviewing official should not have approved the
export success based on the visa assistance and location of the transaction (U.S. vs.
abroad). We did find CS Mumbai correctly reported three export success stories in which
visa assistance resulted in sales valued at more than $17 million.

South India. Bangalore, Chennai, and Hyderabad reported 149 success stories for the
period October 2003 through April 2004.33 We reviewed a total of 40 of those success
stories. Three were reported by more than one office, which reduced our sample to 37.
Our initial review of the sample revealed that many successes did not demonstrate a
direct link between Commercial Service assistance and the export transaction.

To assess the validity of the reported information, we spoke with 3 clients from our
sample and reviewed CS India’s supporting documentation for the related success stories.


33
 South India reported 162 success stories but 13 were reported in more than one office and the duplicates
were not included as part of our sample.


                                                   27 

U.S. Department of Commerce                                          Final Report IPE-16808

Office of Inspector General                                                  September 2004


We found that during our telephone interviews one of these three approved successes did
not comply with CS guidelines.

During a telephone interview with that client, we learned that the client did not believe
CS assistance directly contributed to the reported export sale. However, the export
success narrative claimed that, after counseling the client, CS India encouraged the
company to participate in a 2003 trade show. The company gave a presentation at the
event—and as a result of CS-supported follow-up—received an order for goods
reportedly worth $10,505. As supporting documentation, CS India provided a letter from
the U.S. company to the commercial specialist involved, dated September 2003, in which
the firm thanked the specialist for organizing a luncheon meeting for colleagues in the
industry to discuss “some of the challenges faced on the licensing procedures for India,”
and for meeting with several companies to learn about their application and support
requirements. At the time of our review, we found no documentation referring to their
participation in the trade show. Instead, the company reported a license for this product
in March 2002, long before the trade show presentation in 2003. We do not question the
quality of the assistance provided nor CS’ efforts to perform outreach with the business
community on licensing procedures. In fact, the client was very satisfied with the service
received, but based on his feedback and the documentation provided, the sale was not a
direct result of CS assistance and thus does not meet CS guidelines.

We then reviewed CS’ documentation for all 37 reported success stories34 in our sample.
Thirty-two of them, or 86 percent, did not meet CS guidelines: they either did not provide
documentation that sales resulted from CS assistance, did not fit the categories of valid
export successes, or had deficient export narratives. We therefore expanded our review to
include all 149 export successes reported by South India as of April 20, 2004, and
determined that 135 warranted further analysis because of the following problems:
    • Direct CS assistance for success was not apparent;
    • No supporting documentation (after initial OIG request) was provided;
    • Sale did not occur in the last 24 months; and,
    • CS guidelines for a U.S. export were not met.

Figure 9: Sample of FY 2004 Reported Success Stories for South India, as of April 2004
         INITIAL SAMPLE                                 EXPANDED SAMPLE
          37 Success Stories                             149 Success Stories
                           14%                                          9%




            86%                                              91%
          Valid                                            Valid
          Need Further Review                              Need Further Review
Source: e-Menu, CS Performance Measures

34
     This includes the three telephone surveys.


                                                  28
U.S. Department of Commerce                                                       Final Report IPE-16808

Office of Inspector General                                                               September 2004




We are concerned that CS guidelines and CS India’s reporting mechanisms do not
provide for accurate and thorough management review at all levels. During initial
conversations with the SCO, he told us that he reviews all export success stories.
However, some of the issues we found suggest that all export successes were not
reviewed. In particular, we noted a large number of problematic export successes in
Chennai with only one sentence in the export success narrative.

After we discussed our findings with the SCO and Chennai PCO, they determined that all
FY 2004 reported success stories for South India, including those submitted after our
April 2004 sample, warranted the SCO’s personal reevaluation. The SCO traveled with
the Mumbai PCO to Chennai and reportedly “reviewed all 181 success stories generated
through CS Chennai in FY 2004. These … include success stories submitted from CS
Bangalore and CS Hyderabad. As a result, 131 of these success stories have been edited,
and 50 have been either removed from e-Menu, withdrawn pending additional
documentation, or combined into single success stories.”

The SCO determined 16 of the 50 stories were portrayed as multiple successes, but were
really part of single successes and were thus combined into single records reportedly
worth approximately $4 million. Of the remaining 34 records, 14 exceeded the 24-month
rule; 13 had insufficient documentation; 3 represented assistance primarily from partner
agencies; 2 did not involve U.S. exports; and 2 were not completed transactions. These
34 export success stories accounted for more than half (approximately $75 million) of the
original $145 million in export values reported by South India.

Upon completion of the SCO’s review, we requested he send us all current
documentation for the remaining 131 export success stories so we could analyze those
success stories a second time. We found at least 124 of the export success stories
contained new documentation: South India provided letters dated June 2004 through July
2004 from distributors, suppliers, importers, and/or exporters confirming that CS
assistance contributed to their export sales.

However, we found documentation for 3 of the 131 remaining export success stories still
did not meet CS guidelines and should therefore be removed. Specifically, the new
documentation did not support the reported dates of sale or export success claimed in the
narratives. We also noted with many of the remaining 128 narratives and documentation
that they did not cite when the value-added counseling took place or what sale directly
resulted from specific counseling. Instead, as a result of the harvesting process, firms
combined all their reported U.S. exports from CS assistance within the last two years.
We found this is not specifically prohibited in the guidelines,35 however when a company


35
  CS guidelines state, “the signing of a contract or agreement and an export sale immediately thereafter,
related to the same contract, must be reported as a single Export Success. Subsequent sales may be
considered for an ITM if additional service is provided for those transactions in that market.” In these
cases, the sales could be considered a result from continued assistance during the last two years. However,
such continuing value-added assistance should be specific and documented to support each export success.


                                                    29 

U.S. Department of Commerce                                          Final Report IPE-16808
Office of Inspector General                                                  September 2004

lumps together all sales that occur in a year, it is difficult for CS to directly link its
assistance with a particular sale, nor can it determine whether additional sales from the
exporter resulted from additional assistance—transactions that Commercial Service
categorizes under “increase-to-market” support. We also found several additional
problems that should be resolved: miscalculated values, no inclusion of co-participants in
narratives, and inadequate verification for what type of client was assisted (e.g. new-to­
market).

Going forward, some of these documentation problems should be resolved if CS India
strictly enforces its use of CMS at the direction of the SCO, which requires
documentation of counseling sessions and the specific type of CS assistance involved in a
transaction.

Problematic reporting in South India offers lessons for the entire post. Our very detailed
review of the 149 export success stories for South India identified several mechanisms
that could enhance export success reporting throughout CS India. Though not a CS
requirement, following a time line with specific dates for contacting clients, counseling,
and reporting an export success would provide a framework for the events and help
determine what value-added assistance was provided and whether it was for a new or
established contact. We also remind CS India to consistently include all participants and
contributors for the export success in the narrative, per CS guidelines, in addition to
verifying dollar values, client contact information, and providing the date of counseling
and reported export success.

RECOMMENDATIONS: Commercial Service should:
   • 	 Revise the current CS performance measure guidelines to (1) include, as in the
       past, specific procedures and responsibilities for review and oversight of export
       successes, along with detailed definitions, as appropriate, and (2) emphasize as
       confirmation of the export success that the documentation should include what
       specific CS value-added assistance contributed to the reported export success;
       and,
   • 	 Ensure approving officials thoroughly review each export success for quality and
       adherence to CS guidelines, including a review of CMS records and other
       documentation to verify value-added assistance.



In responding to our draft report, CS management strongly disagreed with our finding
that CS’ FY 2004 reporting guidelines have reduced management accountability for
ensuring quality and integrity of export success reports. CS management stated that the
new guidelines should be viewed as “the result of a multi-year process to improve the
quality, consistency and accountability of the export successes recorded by the
Commercial Service.” The response further states that the OIG did not adequately
consider steps taken by the Commercial Service to communicate and provide guidance to
CS’ field offices pertaining to export success quality control and the mechanisms in
place. ITA reported that in October 2003, the Deputy Director General sent a worldwide


                                            30 

U.S. Department of Commerce                                          Final Report IPE-16808
Office of Inspector General                                                  September 2004

email introducing the changes in the FY 2004 performance measures, specifically stating
that first-line managers were ultimately responsible for the successful implementation of
CS performance measures.

ITA also reported that Commercial Service established a “Performance Measures Experts
Group” to respond to questions, provide performance measures training, and discuss
policy questions and make appropriate determinations. In addition, CS said that it had
provided performance measures training for CS staff in October and November 2004, and
in the early Spring, quality control was discussed at each of the regional SCO meetings.
In July 2004, ITA appointed an Export Success Quality Control Officer (GS-14) to
monitor all export success reporting worldwide in order to create a “permanent
management tool for improving the content, quality, and consistency of export success
reporting throughout the Commercial Service.” ITA reported that the actions of this
Officer, in coordination with other CS units, resulted in the systematic review of 7,254
export success records and the deletion of 121 duplicate export successes.

ITA also reported that it is developing a sampling methodology for an in-depth quality
review of export successes from Commercial Service offices worldwide. In FY 2005 and
subsequent years, ITA said that it intends to review approximately 20 percent of current
export successes submitted by each office. In addition, ITA stated that its Performance
Measures Working (PM) Group is being reconfigured to better represent the current
Commercial Service structure, and an Export Success Summit will be held in the first
quarter of FY 2005 to organize, clarify, and augment the standard export success
guidelines now in place.

We support ITA’s effort to improve the quality of export success reporting and the
reporting of other performance data. However, we note that despite many enhancements,
significant problems still occurred. The export success stories we reviewed were subject
to this new FY 2004 guidance. However, as noted in our report, even though the SCO
stated he reviews all export success stories, he withdrew, edited, or combined 50 out of
181 reported export successes (valued at $79 million of the original $145 million), as a
result of our review. In addition, the previous guidelines provided a second level of
quality control that is no longer included in the current guidelines. Specifically, it gave
responsibility to the Office Directors, in this case Regional Directors, to “spot-check”
export success reports. When we asked the former Regional Director if she reviewed
India’s export success stories, given the dramatic increase in FY 2004, she stated she did
not review any of the post’s export success stories. In addition, we identified problematic
documentation supporting export success claims in three of CS India’s seven offices,
even though ITA noted in its response that documentation requirements were an
important component of its performance measures training sessions.

In conclusion, all of the enhanced quality control mechanisms mentioned above did not
prevent CS India from having to remove, edit, or combine 50 out of 181 approved export
success stories for FY 2004, totaling approximately $79 million of the original $145
million in export values reported by South India. ITA agreed that the written CS
guidance may be “deficient” and stated it will be examined and revised at the Export


                                            31 

U.S. Department of Commerce                                                         Final Report IPE-16808
Office of Inspector General                                                                 September 2004

Success Summit. As the primary written guidance available to field staff, we reiterate
our recommendations that CS revise its current guidance to include specific procedures
and responsibilities for review and oversight of export successes and emphasize, as
confirmation of the export success, that the documentation should include what specific
CS value-added assistance contributed to the reported export success. In addition, CS
should ensure that approving officials thoroughly review each export success for quality
and adherence to CS guidelines, including a review of CMS records and other
documentation to verify value-added assistance.

D. Export License End-Use Checks Are Generally Handled Well

The Bureau of Industry and Security (BIS) is the Department of Commerce agency that
issues dual-use export licenses. In a 1988 memorandum of understanding between BIS
and the International Trade Administration, it was agreed that Commercial Service posts
would conduct end-use checks related to U.S. dual-use export licenses on behalf of BIS
in each country in which they were located. BIS’ end-use check handbook, How to
Conduct Pre-License Checks and Post-
Shipment Verifications (January 2004            End-use checks are verifications employed to
edition), requires that CS overseas offices     safeguard the export of controlled U.S. goods and
maintain records of end-use checks for a        technology. They consist of pre-license checks and
                                                post-shipment verifications.
period of 5 years (the statute of limitations
for BIS investigations into export matters).    Pre-license checks determine the suitability of an
                                                         overseas person or firm to receive controlled U.S.­
                                                         origin goods or technical data. CS officers conduct
From FY 2000 through FY 2004 (through                    the majority of PLCs.
April 2004), CS India conducted 110 end-
use checks – 59 PLCs and 51 PSVs. We              Post-shipment verifications confirm that the goods
                                                  or technical data exported from the United States
found that these checks generally adhered to      were received by the intended importer and are
BIS’ reporting requirements, with one             being used for the approved purposes. BIS’
exception: 14 response cables from CS             Safeguards teams conduct the majority of PSVs
                                                  worldwide.
Chennai and 9 response cables from CS
Mumbai did not provide the date of the end-
use check visit, as required in the BIS handbook (response cables from post provide an
account of the end-use check results).36 Proper documentation, requiring a detailed
account of the end-use check visit, is important in the event of a BIS investigation. We
brought this issue to the attention of the SCO and PCOs in New Delhi, Chennai, and
Mumbai, who stated that they would be more cognizant of BIS reporting requirements.

At CS New Delhi, we also noted missing copies of request cables for 9 checks and
response cables for 16 checks, most of which were for checks conducted in Mumbai
between FYs 2000 and 2002. According to CS officers in India, CS New Delhi
maintains copies of all end-use check cables from CS Chennai and Mumbai. The SCO
and CS staff in New Delhi explained that upon the SCO’s arrival at post in July 2003,
significant problems with records retention were noted and the post had no central
location for BIS-related documentation. CS New Delhi staff informed us that the office

36
  Although BIS’ end-use check handbook was revised in January 2004, the current version and previous
(2000) version contain the same reporting requirements.


                                                  32 

U.S. Department of Commerce                                          Final Report IPE-16808
Office of Inspector General                                                  September 2004

has since catalogued existing BIS cables and related documentation and has a dedicated
location for all BIS-related documents.

BIS export control attaché is expected to take over end-use check responsibility. BIS’
Office of Export Enforcement investigates alleged export control violations and
coordinates its enforcement activities with other federal agencies, including the Bureau of
Immigration and Customs Enforcement (ICE), the FBI, and U.S. Attorneys’ Offices. In
addition to its 10 domestic offices, BIS has stationed export control attachés in Abu
Dhabi, United Arab Emirates, Beijing, Hong Kong, and Moscow. BIS anticipates
stationing an attaché in the CS New Delhi office in the fall of 2004 to oversee in-country
export control activities, including conducting end-use checks and maintaining liaison
with host government senior officials and export control and enforcement agencies. The
attaché will report to the SCO and hold the rank of a commercial officer. In addition to
handling export control activities, the attaché will provide end-use check training at
regional conferences for U.S. commercial officers stationed in other countries and
perform limited Commercial Service program duties, such as providing assistance to U.S.
business representatives and reporting on host country export control developments.
Both CS headquarters and the SCO look forward to having the attaché in country.




                                            33 

U.S. Department of Commerce                                                            Final Report IPE-16808
Office of Inspector General                                                                    September 2004

III. CS India’s Handling of Trade Events Indicates Need for CO Training

For three trade fairs held during FY 2003-2004, we found problems with CS India’s
participation in two areas—the method by which the post collected fees and the question
of appropriate CS support for noncertified trade fairs.37 A fourth trade event program,
initiated in FY 2001 but with continuing financial problems in FY 2004, was an example
of post’s failure to properly manage trade events.

A. Authority for Methods Used by Post to Collect Fees for Three CS India Trade Fairs
   Is Not Clear

ITA can finance trade events via user fees, which require ITA to recover direct and
indirect costs, or via MECEA38, which authorizes collections and use of collections for
Commerce trade promotion and related activities. Applicable guidelines for user fees
include Circular A-25 from the Office of Management and Budget (OMB) and the
Department’s Accounting Principles and Standards Handbook. 39 We found that the
methods used by CS India to collect fees for three CS India trade fairs do not appear to
have been based on applicable guidelines for either user fees or MECEA. In fact, we
could not identify any authorization or guidance to support the post’s fee arrangements
for such events.

We initially reviewed the collection arrangements for one trade fair because the SCO had
an open question to CS headquarters on whether CS India was allowed to collect funds
from the fair organizer. After asking CS India staff if there had been fairs with similar
collection arrangements during FY 2003-2004, we then reviewed two additional fairs.
For two trade fairs during this period, CS India accepted or considered accepting
promotional fees from non-USG fair organizers that were based on space rental fees paid
by U.S. fair participants. For a third fair during this period, CS India collected a portion
of discounts that U.S. participants received from the organizer. According to the former
ANESA regional director, who was responsible for overseeing CS India when these fairs
occurred, CS headquarters was not aware of these collection arrangements until after the
fairs had occurred

CS India Accepted or Considered Accepting Promotional Fees for Two Fairs

Biotech India 2003 (New Delhi, February 5-8, 2003). An Indian nonprofit business
association, with 4,250 members companies from the private and public sectors,
organized this noncertified trade fair. In a letter to the association, dated August 5, 2002,
CS India’s deputy commercial counselor offered a number of CS services in return for 15
percent of all space fees collected from American companies, U.S.-India joint venture
companies, and other U.S. organizations that agreed to participate in the U.S. pavilion.

37
   A trade fair or show is one type of trade event. In this discussion, it signifies an exhibition by U.S. 

companies of their products or services. 

38
   Mutual Education and Cultural Exchange Act (1961), 22 U.S.C. 2355(f) and 2458(c)

39
   Office of Management and Budget, Circular A-25, User Fees, and U.S. Department of Commerce, 

Accounting Principles and Standards Handbook, Chapters 11 and 12, April 2000. 



                                                       34 

U.S. Department of Commerce                                                   Final Report IPE-16808

Office of Inspector General                                                           September 2004


Fees were based on the number of square meters rented. In a letter to CS, dated
September 3, 2002, an association official wrote that the association would pay 15
percent of the total space rented in the U.S. pavilion as a promotional fee to CS, but
should the U.S. pavilion be cancelled, the association would not pay the fee, which meant
that CS could incur expenses and not be reimbursed.

The details of this fair, as entered into e-Menu, show 14 participants; an average
participation fee of $430; authorizations for expenditures of $5,600; liquidations of
$5,483; and fees collected of $6,020. However, only one of the participants listed—the
association—paid a fee to CS. A check from the association, dated February 8, 2003,
was made to “American Embassy, New Delhi” for Rs. 284,819 (approximately $6,020 at
that time). This amount equaled 15 percent of the total space rental fees that the
association had collected from U.S. pavilion participants and had agreed to pay as a
promotional fee to CS.

DefExpo 2004 (New Delhi, February 4-7). The same business association, in
conjunction with India’s Ministry of Defense, organized this noncertified trade fair. In a
letter to the association’s deputy director, dated May 28, 2003, CS’ acting commercial
counselor wrote the terms under which CS would recruit American companies and
support a U.S. pavilion. In a responding letter, dated June 26, 2003, the association’s
director for trade fairs and events wrote that the association would pay 15 percent of the
total space rented in the pavilion as a promotional fee to CS with a minimum of 500
square meters required. The director also wrote that the association would not pay the
promotional fee if the U.S. pavilion were cancelled [due to insufficient response].

When we reviewed e-Menu entries for this fair, we found that CS India did not charge
any expenses to the DefExpo account. According to a CS India staff person who worked
on this fair, CS India used the association to collect fair fees in order to avoid paying an
ICASS administrative charge.40

In an e-mail to a CS staffer dated February 11, 2004, the association’s director of trade
fairs and events listed eight U.S. companies that had participated in the U.S. pavilion in
DefExpo 2004, the square meters rented (342 total), and amount paid by each company
($97,017 total). CS India had not met the minimum space requirement of 500 square
meters for the U.S. pavilion. However, the association was willing to waive the
requirement and pay CS India a 15 percent fee ($14,452), of its total collections.

In an exchange of e-mails in May 2004, the SCO in New Delhi sought clarification from
headquarters before collecting any funds from the association. Excerpts from his e-mail
follow:

        All the companies directly signed up with [the association] and paid the
        participation charges directly to [the association]. However, there was no
        consolidated U.S. pavilion since many U.S. companies signed up at the

40
  There is a 7 percent ICASS charge for non-bankcard expenses and 3 percent ICASS charge for bankcard
expenses for all events and activities, except Business Facilitation Service.


                                                 35 

U.S. Department of Commerce                                           Final Report IPE-16808

Office of Inspector General                                                   September 2004


       last minute. Also, many of them signed up directly the [the association]
       without CS knowledge. Since there were no direct expenses and given the
       fact that CS did not fulfill the minimum requirements of 500 sqms and set
       up a U.S. pavilion, we did not submit a budget on the emenu since post
       didn’t believe we’d be making any collections.

       Nevertheless, since the event ended up with a significant U.S.
       representation, we checked with [the association] after the show to see if
       they were willing to waive the conditions attached to the fee payment.
       Given our good working relationship with [the association’s] event
       management division, [the association] agreed to pay post a 15% fee (on
       the total U.S. recruitment of 243 square meters with collections of
       $97,017), which amounts to $14,452. Anyway, the event is now over and
       we have no expenses that need to be charged to the Defexpo account.
       However, we have the option of collecting this fee from [the association]
       and using these trust funds for other budgetary needs.

       If HQ gives the okay, we think this technique could possibly be introduced
       to other posts as a way to generate user fees.

After we questioned the appropriateness of CS India’s request to collect a fee from the
fair organizer for its recruitment efforts, CS consulted with the Department’s Office of
General Counsel (OGC), and CS headquarters finally answered CS India on July 30,
2004. Following OGC’s guidance, headquarters wrote that CS India could only recover
its costs, including overhead. To justify the costs claimed, CS India would have to
specify what services had been provided and the number of hours commercial officers
and foreign service nationals had worked to provide those services in support of DefExpo
2004. The SCO responded on August 2, 2004:

       Given the sound guidance we’ve just received, we believe it would
       probably not be prudent at this time to reengineer our costs. The smart
       thing to do, in our view, is to not collect the fees from [the association],
       and to develop for future events a protocol that is completely in
       compliance with the spirit and letter of OMB Circular A-25. So if no one
       has any objections we’ll close this case.

CS Collected a Portion of Discount Participants Received from Organizer of Aero India
2003

Organized by India’s Ministry of Defense, Aero India is considered India’s premier
aerospace fair. CS India recruited 8 U.S. aerospace and defense companies for Aero
India 2003 (February 5-8, 2003), which was not a certified trade fair.

In reviewing documentation for Aero India 2003, we found the following:
    • Fees paid by exhibitors to the fair organizer were based on
           o Square meters rented,


                                            36 

U.S. Department of Commerce                                                        Final Report IPE-16808

Office of Inspector General                                                                September 2004


           o Location of rented space (indoor, outdoor, with or without shell)
    • 	 The fair organizer discounted fees for exhibitors recruited by CS India by 15
        percent.
    • These exhibitors paid 7 percent of the pre-discount fee amount to CS India.
(Figure 10 provides a breakdown of total fees billed by the ministry versus fees paid to
CS by four of the participants.)

Figure 10. Aero India 2003: Total Fees Billed to Four Participants vs. CS Fees Collected41
Co.      Square Meters   Total USD 15%          Net Amount   7% of       Fees Paid
         Rented          Amount       Discount Due           Total Amt   to CS India
                         Billed                              Billed      (from e-menu)
     1          30 sqm       $12,000    $1,800       $10,200        $840           $840
              raw space
     2          27 sqm        13,500      2,025       11,475         945            945
            indoor shell
     3          12 sqm          6,000       900        5,100         420            420
            indoor shell
     4          30 sqm        12,000      1,800       10,200         840            864
              raw space

When we asked CS India to explain the basis for the 7 percent commission, the deputy
SCO responded that it was based on post’s initial estimates of costs for the fair and likely
U.S. participation. However, the exhibitors’ fees and CS’ share of their 15 percent
discount did not reflect projected or actual CS expenses but rather the size and type of
space rented.

The methods used by CS India to collect fees for Biotech India 2003 and Aero India 2003
do not seem to be appropriate under either OMB Circular A-25 or MECEA. ITA should
consult with the Department’s Office of General Counsel regarding what authority allows
CS to collect promotional fees. ITA and CS should oversee post trade events to help
ensure that the posts handle trade event finances in accordance with applicable rules and
regulations.

B. CS India Provided Inappropriate Services for Noncertified Trade Fairs

Each year the Department of Commerce selects trade fairs in prime markets worldwide
and certifies them via the Trade Fair Certification Program. This program is a
cooperative arrangement between U.S. private sector trade show organizers and
Commerce through which the Department endorses and supports organizers’ efforts to
recruit U.S. exhibitors to international trade shows and manage an official U.S. pavilion,

41
  During our review of the Aero India file at post, we found copies of invoices sent to only 4 of the 8 fair
participants. When we compared those invoices to the data in e-Menu, we found that the 7 percent
commission paid by the 4 participants had been entered as fee payments in e-Menu. Fee payments had also
been entered for the remaining 4 participants. Based on the entries for the first 4 participants, we
concluded that the total fee payments of $10,863 listed in e-Menu for Aero India were equal to 7 percent of
the total amount billed to the 8 participants or 7 percent of approximately $155,180.


                                                    37 

U.S. Department of Commerce                                                      Final Report IPE-16808
Office of Inspector General                                                              September 2004

and the Commercial Service provides a specific menu of services to exhibitors. Fair
organizers pay a nonrefundable contribution of $1,750 for each fair that is to be certified.
Of this amount, CS headquarters reserves $300 for ICASS expenses and the post receives
$1,450 for its expenses.

According to CS’ website promoting trade fair certification42, the benefits of certification
include the identification of the certified organizer’s area as an official government
supported pavilion for U.S.
                                          Certified vs. Noncertified events
exhibitors, the recognition that the
show organizer is reliable, the           According to an official from CS’ Trade Certification
arrangement of support services           Program, post support for certified fairs involves actively
from CS offices in the U.S. and at        recruiting exhibitors and arranging support services from
other countries, and the                  domestic CS offices. For noncertified fairs, CS support is
                                          supposed to be limited to information sharing, e.g., market
standardization of CS support
                                          briefings, and public relations duties. This official noted
worldwide.                                that when posts provide the same level of services for
                                              certified and noncertified fairs, they dilute the value of
For Biotech India 2003, CS              certification and of Commerce’s endorsement.
services promised by the deputy
commercial counselor included promoting the show in the U.S. and to American and
joint venture companies located elsewhere, recruiting participants, printing an exclusive
U.S. pavilion directory, and providing other business facilitation services. A booklet for
the fair, “Guide to U.S. Exhibitors at Biotech India 2003,” featured the logos of CS India,
the Pharmaceutical Research and Manufacturers of America, and the U.S.-India Business
Council.

For DefExpo 2004, the acting commercial counselor wrote that CS would promote the
fair in the U.S. and elsewhere, recruit American participants, print a directory and
briefing materials, and construct booths for participants opting for built-up space. In its
reply, the event organizer wrote that it would pay 15 percent of the space rental fees in
the U.S. pavilion as a promotional fee to the U.S. Commercial Service. When the current
SCO arrived, he sent letters to U.S. companies, inviting them to exhibit at the U.S.
pavilion for DefExpo 2004. CS New Delhi also asked the U.S.-India Business Council to
promote the show to U.S. defense and aerospace companies. For Aero India 2003, CS
India delivered a range of services at the fair, including business counseling, U.S.
pavilion organization, opening by the U.S. ambassador, and a cocktail reception for U.S.
exhibitors.

The services provided by CS India at these three trade fairs—Biotech India 2003,
DefExpo 2004, and Aero India 2003—gave the appearance that these fairs were certified
trade fairs. ITA should clarify the level of services appropriate for noncertified trade
fairs.




42
     www.export.gov/comm._svc/trade_fair_certification.html


                                                   38 

U.S. Department of Commerce                                                     Final Report IPE-16808
Office of Inspector General                                                             September 2004

C. Problems with USA Day Events Further Illustrate Post’s Failure to Properly
   Handle Trade Events

According to the CS Operating Manual, all official events must be approved through the
ITA trade events approval process. Once an official event has been approved through
this approval process, a unique project code is assigned, and all collections and
expenditures must be posted to this unique code. According to officials with CS’ Export
Promotion Service, ITA’s approval process involves officials from the major offices of
ITA43, including the regional director for the CS post. The number of events per post
varies, depending on the relative interest of U.S. industry in various markets, as well as
resource allocation decisions by senior commercial officers.

USA Day Events was a series of 2001-2002 events planned by the PCO in Mumbai for 12
cities in western India. The goal of the event series was to promote awareness of CS
services in western India and awareness and participation in the CS web-based Buy
USA.com electronic business matchmaking service. Between May and November 2001,
events were held in 6 cities.

Although the first event was scheduled for late May 2001, the responsible PCO did not
ask headquarters for help structuring the series until April 2001, and a project ID (needed
to fund the events) was not requested until early May. The events were to be funded by
contributions from Indian and U.S. companies. In May 2001, several officials at CS
headquarters raised concerns about the structure and funding of the events, and ITA
officials did not approve the series of events. However, CS Mumbai collected about
$40,000, which was stored in its office safe.

By late May, a new plan, developed by CS India’s deputy SCO, was adopted. As part of
this plan, the initial contributions payable to CS were returned and contributors were
asked by the PCO to make new contributions payable to the USA Day Fund, controlled
by an Indian trade association. Members were informed that the contributions would be
deposited in an account administered by an Indian trade association but used solely for
the 12 USA Day events to be held throughout western India. According to a November
2002 memorandum to NOAA’s Office of Finance and Administration, written by the
Deputy Director for ANESA, the details of the new plan were communicated via e-mail
to all relevant Washington managers. As no funds were to be collected or paid by CS,
the restructured series of events was not entered into ITA’s trade event database.

The first event in the series was held on June 1. By November 2001, approximately
$93,000 had been collected from companies agreeing to sponsor the events. There was
no written agreement between the trade association and Commercial Service detailing
43
 Formerly involved in the approval process were officials from CS’ Office of International Operations,
Office of Domestic Operations, and the former Export Promotion Services; Market Access and
Compliance; the former Trade Development, and ITA’s Trade Events Board. Effective July 30, 2004,
Department Organization Order 40-1, abolished the position of Deputy Assistant Secretary for Export
Promotion Services, transferred trade promotion responsibilities of ITA’s former Trade Development to
CS, and renamed Trade Development as Manufacturing and Services.



                                                   39 

U.S. Department of Commerce                                            Final Report IPE-16808
Office of Inspector General                                                    September 2004

how the funds should be spent. Also by November, 6 events had been successfully
conducted at a cost of approximately $25,000 (leaving approximately $68,000 in the
association’s bank account). In November 2001, an allegation of misuse of funds by CS
Mumbai was forwarded to ITA by the OIG, and events were not held in the remaining
cities.

Commercial Service conducted an internal review of the financial arrangements in
November-December 2001, and recommended the following actions:

      • 	 In order to clarify any perceived misperceptions, we recommend that CS India
          return all USA [Day] Funds to its contributors, including any monies used to
          finance USA Day events. If needed, CS India will use its own [appropriated or
          Operations and Administration] funds to assure that 100 percent of all monies are
          returned to the [sponsor] contributors.
      • 	 The ANESA Office, in coordination with the Office of Planning, should schedule
          a visit to Mumbai to train its staff, including [the PCO], on all CS fiscal and
          budget procedures. Training should include Trust Fund and Trade Event
          Management and the use of e-Menu Finance.

In May 2002, CS headquarters decided to give all company sponsors a full refund: it
planned to send approximately $25,00044 to the trade association, hoping that in turn, the
association would refund the full $93,000 to the company sponsors. In July 2002, CS
India’s deputy SCO was in Washington and discussed Commercial Service’s objective
with officials from the Department’s Office of General Counsel, ITA, and the NOAA
Contracting Office, whose role would have been to authorize any repayment, via a
ratification action, to the trade association for any costs incurred on behalf of CS.

In November 2002, the deputy director for ANESA requested that NOAA’s Office of
Finance and Administration ratify CS’ plan to give the association $25,000 so that
Commercial Service could transfer the funds to the trade association. In July 2004, the
ratification request was still pending because of questions NOAA had concerning
expenses incurred by the association in conducting the first 6 events.

At the time of our review, most of the CS headquarters officials who had been involved
in the decision to give a full refund had retired. We found that current headquarters
officials were not aware of or did not recall the pertinent facts and circumstances of the
case: for example, that $68,000 remained in the trade association’s bank account when
the program was canceled in November 2001.

Since CS had no formal written agreement with the association, which would have
addressed this contingency, it could not be sure that the association would distribute the
$25,000 to the original sponsors. By July 2004, it also appeared that the trade association
no longer had the $68,000 needed to make a full refund of $93,000. In addition, the
responsible PCO knew of no sponsors that had asked for reimbursement. After we

44
     Amount was $25,541.


                                             40 

U.S. Department of Commerce                                           Final Report IPE-16808
Office of Inspector General                                                   September 2004

brought this issue to the attention of CS, ITA, and NOAA officials and discussed all
known pertinent facts and circumstances, they agreed with us that the plan to pay the
association approximately $25,000 should not proceed. ITA advised NOAA to cancel its
2002 request for ratification. This decision will result in funds to be put to better use of
$25,541—the amount that ITA was prepared to disburse to the Indian trade association—
in FY 2004.

Late planning and poor communication within the Commercial Service contributed to the
continuing problems with this 2001 series of trade events. However, the absence of a
written agreement between Commercial Service and the Indian trade association
controlling the collected funds was the key factor that left CS unable to defend itself
against allegations of financial impropriety and with no recourse to require the
association to return the remaining $68,000 to the contributors when the remaining events
were not held.

As of July 2004, CS headquarters had not implemented the recommendation from its
2001 internal review that the Mumbai PCO and staff receive administrative and financial
management training, including trust fund and trade event management counseling.
During our on-site inspection of India’s CS posts, the Mumbai PCO acknowledged that
he had not followed Commercial Service procedures for trust funds. Given the
administrative and financial management responsibility placed on overseas officers,
especially at one-officer posts, commercial officers would benefit from training in CS
policies regarding noncertified trade fairs, trade events, and current Department
guidelines on interoffice and other special agreements.

Recommendations: ITA’s Chief Financial Officer (CFO) and Director of
Administration, in conjunction with CS, should:
   • 	 Request the Department’s Office of General Counsel to clarify under what
       authority, if any, CS can collect promotional fees from non-USG fair organizers.
   • 	 Oversee post trade events to help ensure that the posts handle trade event finances
       in accordance with applicable rules and regulations.
   • 	 Ensure that COs worldwide are trained on ITA policies regarding certified and
       noncertified trade fairs, trade event financing arrangements, and current
       Department guidelines on interoffice and other special agreements.



In its response, ITA did not explicitly address the problems and recommendations
regarding trade fairs and events that were outlined in our draft report. CS did agree that
there is a confusing array of guidance on the various administrative and financial
management issues which its officers and local staff are called upon to execute and that
the officers and staff need better training on these issues. CS wrote that they have been
working on these issues well before this IG report. It noted that its efforts have included
(1) a pilot project to use experienced FSN budget managers to help train and guide
overseas administrative/budget field staff; (2) administrative and financial management
training courses for both FSNs and Commercial Officers during FY 2004; and (3)


                                            41 

U.S. Department of Commerce                                            Final Report IPE-16808
Office of Inspector General                                                    September 2004

preparation of a draft overseas budget and administrative manual. CS also wrote that in
FY 2005, OIO plans to integrate the policy expertise of ITA’s Global Trade Programs
(GTP) unit into overseas trust fund execution and training. With regard to CS India, the
Acting Director General stated that the regional director will ensure that the officers and
administrative staff receive this trust fund management training.

We commend CS for the steps that it has already taken to strengthen the financial and
administrative operations. We request that in its action plan, CS specify whether the
training by the GTP unit will include training on CS policies regarding certified and
noncertified trade fairs, trade events and current Department guidelines on interoffice and
other special agreements. If such training will not be part of training by the GTP unit,
please specify how overseas staff worldwide will receive such training. We also request
that in its action plan, CS provide the implementation schedule for its plans to have the
GTP unit train the OIO regional budget managers in correct trust fund management and
to ensure that the regional budget managers review these procedures with their posts. In
addition, we request that ITA’s action plan include the schedule for providing overseas
trust fund training to CS India’s officers and administrative staff.

Regarding our recommendation that CS request the Department’s Office of General
Counsel to clarify under what authority, if any, CS can collect promotional fees from
non-USG fair organizers, we request that CS take action on this recommendation and
provide us with a copy of the general counsel’s opinion on this matter.




                                             42 

U.S. Department of Commerce                                          Final Report IPE-16808
Office of Inspector General                                                  September 2004

IV. 	 Financial and Administrative Operations Are Generally Sound, But a Few
      Areas Require Additional Attention

In general, CS India’s financial and administrative operations are sound. Specifically, we
found that CS India is properly monitoring its use of State Department-provided
International Cooperative Administrative Support Services (ICASS), and efficiently
managing its FY 2004 ICASS budget of $418,986 (roughly $13,000 less than its FY 2003
budget). Procedures for gifts and bequests, representation funds, purchase orders, FSN
time and attendance, petty cash replenishment, and use of assets appear to be properly
followed. CS New Delhi was not keeping records of personal telephone usage and only
recently began tracking and paying for personal calls. The FSNs responsible for the
financial operations in New Delhi, Mumbai, and Chennai should receive much of the
credit for the sound processes we reviewed at each of the posts.

For FY 2003 and part of FY 2004, most of the financial operations for the seven offices
were centralized in New Delhi and handled by one FSN. Many of the problems we
identified occurred during this time. However, our review did find several remaining
financial and administrative weaknesses regarding lockbox deposits and rating officials
not providing timely performance evaluations and salary increases despite apparently
maintaining a tracking log and recent enforcement by the SCO. The post has already
addressed some of these issues; some warrant further review and action.

A. CS India’s Financial Operations Are Generally Well Managed

During the last two fiscal years, we found instances in which payments to vendors were
late, a travel voucher was charged to the wrong fund apparently because O&A funds
were not available, and the cost of an item charged to a purchase card was split in two to
circumvent the $2,500 limit on purchase card expenditures. However, the current SCO
has divided financial duties between two FSNs in New Delhi, following the departure of
the FSN who previously handled such matters. He also decentralized many of the
operations to the financial personnel in the constituent posts—making the posts
increasingly responsible for many of their own financial tasks. Since this redistribution
of financial responsibilities, we found no evidence of similar problems and expect this
division of duties should improve the efficiency and integrity of post’s operations. Some
financial matters, however, need to be addressed.

CS Headquarters Should Standardize Conflicting Lockbox Requirements

According to a March 2000 e-mail from CS headquarters (OIO) and the FSN
Intermediate Administrative and Financial Management Training Handbook (2004), all
client payments received at foreign posts in U.S. dollars and foreign currencies should be
listed on an ITA Collections Transaction Record (CTR) and sent to the post’s
BANKONE lockbox in Chicago, IL. The guidance also requires posts to charge a $55
service fee for all foreign currency checks and U.S. dollar checks drawn against a foreign
bank.




                                            43 

U.S. Department of Commerce                                                  Final Report IPE-16808
Office of Inspector General                                                          September 2004

We found that CS India is not sending all currency collections to the lockbox or charging
the mandatory $55 service fee. Instead, it deposits local currency with the State
Department cashier, rather than in the lockbox, and sends U.S. dollar checks to the
lockbox. Although the current practice ultimately results in the monies posting to CS
India’s account, it does not follow OIO instructions or the FSN handbook. When we
mentioned the discrepancy to the State Department Budget and Finance office in New
Delhi, officials there told us they were not aware of CS’ lockbox requirements.

We found the post’s noncompliance may be due to confusion over what is considered
foreign currency. Post stated they “do not get U.S. checks drawn against a foreign bank
or foreign currency” and all local currency checks from local banks are deposited with
the State Department cashier. However, it appears post may not consider local currency
as foreign currency. In addition, the variety of guidance on standard operating
procedures for overseas collections does not provide a consistent practice. ITA and CS
documents offer conflicting guidance on where to deposit collections and whether to
collect a service fee. Some of the documentation requires all collections be deposited in
the lockbox, while other guidance suggests the State Department should handle all
collections. Figure 11 lists the inconsistencies we discovered in a review of documents.

Figure 11. ITA and Commercial Service Guidance on Collections
                                                                        Deposit      Collection
                   Guidance                   Source        Year
                                                                       Location:       Fee:
                                                             Not
  1 CS Operations Manual                     Ourplace                   Lockbox          $55
                                                           available
                                           ITA Office of
      Online Overseas Financial Policies                                 State
  2                                          Financial       1999                        $0
      and Procedures Manual                                            Department
                                            Management
    Changing Procedures to “Lockbox”
  3 for Depositing Collections Received    OIO E-mail        2000       Lockbox          $55
    at Posts
    Office of Financial Management:        ITA Office of
                                                                         State
  4 Policy and Procedures for Collecting     Financial       2001                        $0
                                                                       Department
    and Depositing Funds Overseas           Management
                                                                                        Costs to
    Office of Financial Management:
                                           ITA Office of                             convert cash
    How to Prepare a Collection
  5                                          Financial       2003       Lockbox       into money
    Transaction Record (CTR) at
                                            Management                                  order or
    Foreign Posts
                                                                                         check
    Office of Financial Management:        ITA Office of
  6 Deposit Procedures for Collections       Financial       2003       Lockbox          $55
    Received at Foreign Posts               Management
    FSN Intermediate Administrative and
  7 Financial Management Training              OIO           2004       Lockbox          $55
    Handbook


RECOMMENDATION: ITA’s CFO and CS headquarters should ensure that (1) the
requirements for overseas collections and deposits are clear and consistent; and (2)
administrative personnel are aware of and follow appropriate procedures.



                                                44
U.S. Department of Commerce                                          Final Report IPE-16808

Office of Inspector General                                                  September 2004





In their response, ITA and CS did not specifically address our recommendation that
headquarters should ensure that (1) the requirements for overseas collections and deposits
are clear and consistent; and (2) administrative personnel are aware of and follow
appropriate procedures. As previously noted in our discussion of ITA’s response on page
41, CS agreed that there is a confusing array of guidance on the various administrative
and financial management issues, which its officers and local staff are called upon to
address, and that the officers and staff need better training in this area. CS wrote that
they have been working on these issues well before this IG report and have already begun
taking action. We request that ITA and CS, in their action plan, provide the specific steps
taken to address our recommendation.

B. Performance Evaluations and Within-Grade Increases Have Been Delayed

Performance evaluations give foreign service nationals annual feedback from
management that helps them successfully perform their required duties and contribute to
the post’s mission. Employees whose performance is deemed to be at “an acceptable
level of competence” are eligible for a salary increase. We found the reviewing officials
in New Delhi, Mumbai, and Chennai did not complete performance appraisals in a timely
manner for some foreign service nationals, thus delaying management feedback and
raises (i.e., “within grade increases”) for these staff, despite reminder notices from the
State Department personnel office, recent enforcement by the SCO, and tracking logs
maintained by post.

As part of post’s ICASS services, rating officials receive reminder notices for personnel
evaluations and within grade increases from the State Department’s personnel office. In
addition, post reports that CS New Delhi and CS Chennai have been maintaining tracking
logs for personnel evaluations and within grade increases since 1999 and October 2000,
respectively. The DSCO reported CS Mumbai maintains a similar log for western India,
but we were unable to verify its implementation date. In addition, post reports “rigorous
enforcement of due dates in most of these tracking logs began in the Fall of 2003.”

However, we found for the 2001-2004 rating cycles we reviewed, 45 percent of CS India
performance evaluations and 56 percent of FSN within-grade increases were more than
30 days past due. This includes at least 5 late performance appraisals and 6 delayed
within grade increases, since the SCO apparently began “rigorous enforcement” of the
tracking logs. According to the Foreign Service Management Planning and Performance
Appraisal System, a performance appraisal is required for each employee annually, at the
end of the rating cycle. Figure 13 shows the number of FSNs affected by and the
corresponding delays in salary increases from the three rating offices in New Delhi,
Mumbai, and Chennai.




                                            45 

U.S. Department of Commerce                                                 Final Report IPE-16808

Office of Inspector General                                                         September 2004


Figure 13: Delayed Within-Grade Increase for Rating Periods 2001-2004

  40                                                                                  0 Months
                                          32                                          1-2 Months
  30                                                                                  2-4 Months
  20                   14                                                             4+ Months
            12    9          13                 6                              13
  10                                                                    4            5
                                                      0    0                              2
   0
                 New Delhi                     Mumbai                         Chennai

Source: FSN Personnel Files located in the State Department Personnel Office, U.S. Embassy New
Delhi, U.S. Consulates Mumbai and Chennai

It appears current measures to prevent delayed performance evaluations and within-grade
increases are not effective for ensuring FSNs receive their reviews and salary increases in
a timely manner.

RECOMMENDATION: CS should ensure that CS India officers complete and submit FSN
personnel evaluations within the appropriate time frames.



In its response to our draft report, CS stated that the SCO understands the importance of
submitting timely FSN personnel evaluations and has made good progress in overcoming
the backlog that he attributed to the ordered evacuation and curtailment of the previous
SCO. In addition, it stated that the SCO has instituted a tracking system and has made
timely completion of FSN evaluations an item on officers’ performance appraisals.

However, we note that the evacuation occurred from May 31 through July 29, 2002, and
the curtailment of the previous SCO occurred in February 2003. The current SCO and
DSCO both arrived in New Delhi in July 2003.

As we stated in our draft report, CS New Delhi and CS Chennai have maintained tracking
logs for personnel evaluations and within grade increases since 1999 and October 2000,
respectively. The DSCO reported that CS Mumbai maintains a similar log, but we were
unable to verify its implementation date. While post reported that rigorous enforcement
of due dates began in Fall 2003, we found five late performance appraisals and six
delayed within grade increases since Fall 2003.

We did not review any performance appraisals or EERs (Employee Evaluation Reports)
completed by the current SCO so we cannot comment on his assertion that he has made
timely completion of FSN evaluations an item on officers’ EERs.

In response to our recommendation regarding security issues addressed in Appendix C,
ITA did not provide any comments. We request that ITA provide written comments
addressing our findings and recommendation.




                                               46 

U.S. Department of Commerce                                          Final Report IPE-16808

Office of Inspector General                                                  September 2004


                       SUMMARY OF RECOMMENDATIONS 


To strengthen the management and operations of CS India as well as other foreign
commercial posts, where applicable. We recommend that the Assistant Secretary and
Director General of the Commercial Service should do the following:

Resource and Staffing Utilization

   • 	 Evaluate staffing allocation and utilization throughout India to ensure it 

       appropriately supports the CS mission (see page 15). 

   • 	 Explore options to potentially reduce CS India’s rent obligations and thereby
       improve the post’s cost-effectiveness as appropriate (see page 15).
   • 	 Assess feasibility of equipping offices with voicemail (see page 15).
   • 	 Evaluate the concept and mission of the BICs in their present form. This
       evaluation should consider, for example, the amount of space utilized by the BICs
       and whether the BICs should utilize more online services and subscription
       databases (see page 21).
   • 	 Ensure CS India officers complete and submit FSN personnel evaluations within
       the appropriate time frames (see page 45).

Export Successes

    • 	 Revise the current CS performance measure guidelines to include—as in the past,
        specific procedures and responsibilities for review and oversight of export
        successes, along with detailed definitions, as appropriate—and emphasize as
        confirmation of the export success that the documentation should include what
        specific CS value-added assistance contributed to the reported export success
        (see page 23).
    • 	 Ensure approving officials thoroughly review each export success for quality and
        adherence to CS guidelines, including a review of CMS records and other
        documentation to verify value-added assistance (see page 23).

To strengthen the financial and administrative operations of ITA and CS, we recommend
that ITA's chief financial officer (CFO) and director of administration, in coordination
with CS, do the following:

   • 	 Request the Department’s Office of General Counsel to clarify under what
       authority, if any, CS can collect promotional fees from non-USG fair organizers
       (see page 34).
   • 	 Oversee post trade events to help ensure that the posts handle trade event finances
       in accordance with applicable rules and regulations (see page 34).
   • 	 Ensure that COs worldwide are trained on CS policies regarding certified and
       noncertified trade fairs, trade events and current Department guidelines on
       interoffice and other special agreements (see page 34).




                                           47 

U.S. Department of Commerce                                        Final Report IPE-16808

Office of Inspector General                                                September 2004


   • 	 Coordinate its overseas collections and deposit requirements and ensure
       administrative personnel are aware of and follow appropriate procedures (see
       page 43).




                                          48 

U.S. Department of Commerce                                    Final Report IPE-16808

Office of Inspector General                                            September 2004


                                APPENDIX A

                               List of Acronyms


ANESA             	             Africa, Near East, South Asia
BIC        	                     Business Information Center
BIS       	                      Bureau of Industry and Security
CMS           	                  Client Management System
CO       	                      Commercial Officer
CS      	                       Commercial Service
DCM	                             Deputy Chief of Mission
DSCO            	                Deputy Senior Commercial Officer
FSN         	                   Foreign Service National
EDA          	                   Economic Development Administration
Ex-Im 	                          Export-Import Bank of the United States
GSO	                             General Service Officer
ICASS                           I	 nternational Cooperative Administrative Services
                                Support
IMI          	                   International Market Insight
ISA          	                  Industry Sector Analysis
ITA          	                   International Trade Administration
MAC                 	           Market Access and Compliance
NFST                  	          National Field Support Team
ODO                 	            Office of Domestic Operations
OFSHR                     	     Office of Foreign Service Human Resources
OGC                 	            Office of General Counsel
OIG             	                Office of Inspector General
OIO             	                Office of International Operations
OMB                  	          Office of Management and Budget
ORAM                      	      Overseas Resource Allocation Model
PCO              	               Principal Commercial Officer
RSO              	              Regional Security Officer
RD          	                   Regional Director
SCO              	              Senior Commercial Officer
USAEP                     	      U.S.-Asia Environmental Partnership
USTDA                      	    U.S. Trade Development Agency




                                      49 

U.S. Department of Commerce                   Final Report IPE-16808
Office of Inspector General                           September 2004



APPENDIX B. Agency Response to Draft Report




                                   50 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              51 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              52 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              53 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              54 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              55 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              56 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              57 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              58 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              59 

U.S. Department of Commerce          Final Report IPE-16808

Office of Inspector General                  September 2004





                              60 

Pages 61-65 of this report have been withheld in their entirety.
